<html>
<title> - ADVANCING U.S. INTERESTS AT THE UNITED NATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                      ADVANCING U.S. INTERESTS AT 
                           THE UNITED NATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2017

                               __________

                           Serial No. 115-68

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-046 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f4e3fcd3f0e6e0e7fbf6ffe3bdf0fcfebd">[email&#160;protected]</a>                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Nikki Haley, U.S. Permanent Representative, United 
  States Mission to the United Nations, U.S. Department of State.     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nikki Haley: Prepared statement....................     7

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    67
The Honorable Adriano Espaillat, a Representative in Congress 
  from the State of New York: Material submitted for the record..    68
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    71
Written responses from the Honorable Nikki Haley to questions 
  submitted for the record by:
  The Honorable Eliot L. Engel...................................    73
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    98
  The Honorable Albio Sires, a Representative in Congress from 
    the State of New Jersey......................................   105
  The Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................   107
  The Honorable Gerald E. Connolly...............................   110
  The Honorable Ann Wagner, a Representative in Congress from the 
    State of Missouri............................................   113
  The Honorable William Keating, a Representative in Congress 
    from the Commonwealth of Massachusetts.......................   115
  The Honorable Francis Rooney, a Representative in Congress from 
    the State of Florida.........................................   118
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   120
  The Honorable Ami Bera, a Representative in Congress from the 
    State of California..........................................   127
  The Honorable Robin L. Kelly, a Representative in Congress from 
    the State of Illinois........................................   132
  The Honorable Bradley S. Schneider, a Representative in 
    Congress from the State of Illinois..........................   133
  The Honorable Adriano Espaillat................................   139
  The Honorable Ted Lieu, a Representative in Congress from the 
    State of California..........................................   141

 
                      ADVANCING U.S. INTERESTS AT 
                           THE UNITED NATIONS

                              ----------                              


                        WEDNESDAY, JUNE 28, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. Today, we 
consider the role of the United States at the United Nations.
    In her first few months, Ambassador Nikki Haley has 
approached her job with determination and purpose.
    Chairing the U.N. Security Council in April, she 
spotlighted the grave security challenges of North Korea and 
nuclear proliferation and the threats that that poses to us. 
She has castigated Iran and Hezbollah for their role in sowing 
instability across the Middle East. And Ambassador Haley has 
made it crystal clear that the U.N. Human Rights Council's 
record of protecting dictators cannot stand. Indeed, as 
Ambassador Haley has declared, the United States' role at the 
U.N. is to ``show our strength, show our voice, [and] have the 
back of our allies.'' I think that is well said, Ambassador.
    The United Nations is charged with the ambitious mission to 
``maintain international peace and security'' and to ``achieve 
international cooperation in solving international problems.'' 
But, unfortunately, the organization all too often falls short. 
U.N. organizations continuously debate issues--but too often 
take no meaningful action.
    As Ambassador Haley has eloquently described, U.N. 
organizations like the Human Rights Council give dictators and 
human rights violators a platform to attack Israel. In addition 
to calling for the U.N. to end its bias against Israel, she has 
made crystal clear that the international body can no longer be 
used to promote anti-Semitism.
    I was pleased to see Ambassador Haley recognize that 
``human rights and conflict are directly connected,'' in her 
words. From my standpoint, I think regimes that don't respect 
the citizens over which they hold power--or visitors like Otto 
Warmbier--won't respect their neighbors, and won't respect 
international agreements.
    Given its terrible human rights record, it is no surprise 
that North Korea is determined to deploy international nuclear 
ballistic weapons technology, and that threatens the region and 
it threatens the United States. Meanwhile, companies and banks 
inside China continue to provide critical hard currency to that 
regime. The United Nations has passed good Security Council 
Resolutions on North Korea--spurred by U.S. legislation that we 
passed in this committee--but solid enforcement is needed.
    As we will hear today, the President's budget proposal 
includes significant reductions in U.S. funding of the United 
Nations and its agencies. U.N. peacekeeping has played a 
critical role over the years in advancing U.S. interests and 
should be prioritized, in accordance with U.S. law. The recent 
deaths of peacekeepers in South Sudan and in Mali remind us of 
the dangers they face. But peacekeeping would find more support 
if failing missions--some decades old--were closed and the 
horrendous sexual abuses tackled head-on.
    This committee has pushed to improve the U.N.'s 
transparency and accountability, advancing protections of 
whistleblowers and bringing U.N. peacekeepers that are sexual 
predators to the bar of justice.
    Ambassador Haley, we look forward to hearing how we can 
support you working to improve transparency and accountability. 
This committee stands ready to assist in your difficult tasks 
ahead.
    And I'll now turn to the ranking member for his opening 
remarks.
    Mr. Engel. Thank you, Mr. Chairman. And, Madam Ambassador, 
welcome to the Foreign Affairs Committee.
    I have watched you in the short months that you have been 
Ambassador. I hope you are enjoying my hometown of New York--
best place in the world--and I have watched you with admiration 
in terms of how you have been conducting yourself.
    As I said to you in the room before we started, we pride 
ourselves on this committee in being the most bipartisan 
committee in the Congress. The chairman and I have worked very 
hard to do that. Where there are disagreements, there are 
disagreements but we all share the same goal.
    And, of course, the United States is the world's biggest 
superpower. We believe that we have a lot to offer the world 
and want to continue to work with all the countries of the 
world.
    I was disappointed in the budget. I said this to Secretary 
Tillerson as well. It cuts our support for key peacekeeping 
efforts in the United Nations by nearly 40 percent. 
Peacekeeping missions help people who have been driven from 
their homes by atrocities in South Sudan. U.N. peacekeepers are 
now protecting nearly \1/4\ million civilians in places like 
Liberia and Cote d'Ivoire.
    Missions are scheduled to closed soon because they have 
been so effective in building stability and security. We have 
traditionally invested a little more than the minimum required 
in peacekeeping and that's what I think an indispensable power 
should do, which is what we have done. That is to show the 
world we are a big hearted country that wants to see people all 
around the world live healthy, prosperous lives.
    American personnel are not deployed by these efforts. Our 
men and women aren't put in harm's way. These initiatives help 
prevent and resolve crises so that we don't have to intervene 
militarily and they do it for eight times less than it would 
cost to send an American soldier.
    So burden sharing--I know we talk about burden sharing. I 
believe these efforts are the definition of burden sharing. The 
administration is also seeking to completely eliminate American 
support for the U.N. development program, for disaster relief 
coordination, for U.N. Women, for the U.N. Population Fund, for 
UNICEF support for children living in the most desperate 
circumstances--100 percent reduction--I think that needs to be 
changed.
    The U.N. has its problems. No one disputes that. We talked 
for a little while about some of them. I personally think the 
way Israel is blamed and bullied by U.N. members is terrible. 
As I told you before, the so-called Human Rights Council has 
the worst human rights abusers on that council and it is the 
epitome of gall, or chutzpah, as we say in New York, to think 
that they can sit and look in judgement of anybody given the 
fact that they have the most abysmal human rights records in 
the world. It almost makes it a little bit like Alice in 
Wonderland.
    But I do think American leadership is urgently needed to 
help shape Security Council resolutions and initiatives in 
other U.N. bodies, and, when appropriate, use our veto to 
counter this imbalance.
    But walking away from our commitments isn't the right way 
to affect the reform that we all want to see. I believe these 
cuts would send a deeply troubling message to U.N. members that 
the United States no longer wants to be a global leader on a 
whole range of issues, that we are willing to cede the ground, 
excuse me, to whomever steps into our place. And I can't 
imagine a more harmful course.
    If we want our values and our priorities to be the values 
and priorities of other countries then withdrawing from 
multilateral engagement is a grave miscalculation. And make no 
mistake, Beijing, Moscow, Tehran, and plenty of others will be 
more than happy to see us back away. So I am glad that Congress 
will have the final word on the budget issues.
    I remain deeply concerned about the number of other areas 
where American foreign policy is going off course and how that 
affects our ability to work with other governments through the 
U.N. I hope your testimony will address some of these problems.
    And let me say, as I told you before, I look forward to 
working with you. You have approached this job with a zest and 
a verve that has been refreshing. We will from time to time 
have policy differences. But I think we all stand for the same 
thing, obviously, and that's what we have tried to do in the 
Foreign Affairs Committee.
    So, welcome. I look forward to your testimony and I look 
forward to your tenure as U.N. Ambassador.
    I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    I now yield to the gentleman from South Carolina, Mr. Jeff 
Duncan, to introduce our witness today.
    Mr. Duncan. Thank you, Mr. Chairman.
    It is a pleasure for me to introduce my friend, Ambassador 
Nikki Haley, to my colleagues. A South Carolina native, 
Ambassador Haley graduated from my alma mater, the 2016 
national football champion, Clemson.
    (Laughter.)
    Mr. Duncan. I'm shameless, guys. Shameless.
    Ambassador Haley made her career as a trailblazer. In 2004, 
she became the first Indian-American to hold South Carolina 
public office when she won a seat in the South Carolina 
statehouse, where I served with her for 6 years.
    In 2010, she was elected the first female as well as the 
first minority governor of South Carolina. In her tenure as 
governor of South Carolina, Ambassador Haley brought investment 
and jobs from all over the world.
    South Carolina now holds more than 1,200 operations of 
international firms, which employ more than 131,000 South 
Carolinians. A lot of this investment was directly tied to 
Governor Haley's efforts, especially in businesses in Europe 
and in Asia.
    On November 22nd, 2016, the President-Elect, Donald Trump, 
picked her to become the United States Ambassador to the United 
Nations, where she continues to strongly represent American 
interests on the world stage.
    Ambassador Haley, welcome to Congress and we look forward 
to your testimony. I yield back.
    Chairman Royce. And welcome, Ambassador. Without objection, 
the Ambassador's full prepared statement will be made part of 
the record. Members will have 5 calendar days to submit any 
statements or questions or any extraneous material for the 
record.
    And I would ask you, Ambassador, if you could summarize 
your remarks.

    STATEMENT OF THE HONORABLE NIKKI HALEY, U.S. PERMANENT 
 REPRESENTATIVE, UNITED STATES MISSION TO THE UNITED NATIONS, 
                    U.S. DEPARTMENT OF STATE

    Ambassador Haley. Thank you very much. And to my friend, 
Jeff--go, Tigers, and thank you for that introduction.
    Chairman Royce, Ranking Member Engel, and distinguished 
members of the committee, thank you for the opportunity to 
discuss advancing U.S. interests at the United Nations.
    Five months and three days ago, I was sworn in as U.S. 
Ambassador to the United Nations. I came into this position at 
a time when many Americans felt a deep sense of betrayal at the 
U.N. in the wake of the passage of Resolution 2334.
    At my confirmation hearing, I made the following promise. 
If I am privileged to be the U.S. Ambassador, I will never sit 
passively while America's interests and America's friends are 
run down at the U.N.
    Five months later, I can say that I haven't been quiet on 
the issues important to the United States. And I can say this: 
I have kept my promise. Our friends and our rivals know that 
America has once again found its voice at the United Nations. 
The international community is now very clear about what the 
U.S. is for and what the U.S. is against.
    It wasn't long after my confirmation that my promise was 
put to the test. In early April, the Syrian regime dropped 
chemical weapons on Syrian children. We forced the Security 
Council to hold an open emergency session, which some member 
states didn't want. We drew a red line. If the U.N. would not 
act collectively, the United States would act alone, and we 
did.
    We have brought new accountability to the North Korean 
regime. When North Korea continued its illegal missile tests, 
we brought all the nations of the Security Council together, 
including China and Russia, to impose new sanctions.
    Even as we focus on North Korea's nuclear and missile 
threat, we also continue to highlight the barbaric human rights 
violations the regime is committing. Otto Warmbier's death 
brought home to Americans the brutality that North Koreans have 
known for decades.
    The same clear voice we have used to take on our 
adversaries we have also used to support America's values and 
America's friends. Thanks to U.S. leadership, human rights are 
at the forefront of the U.N. agenda. For the first time ever 
during the U.S. Presidency of the Security Council we convened 
a meeting dedicated solely to the protection of human rights 
and their relationship to conflict.
    We made the case that human rights violations and conflict 
are directly related. History has played out that when 
governments don't respect the rights and voices of the people, 
conflict will soon follow.
    We have also called out the U.N. Human Rights Council for 
legitimizing human rights violators at the expense of their 
victims. We have put forward reforms to make the council what 
it was meant to be: A place of conscience for nations and 
justice for victims. I traveled to Geneva earlier this month to 
make it clear to the council that continued U.S. participation 
is contingent on adoption of these reforms.
    On a related note, the U.S. mission now refuses to tolerate 
one of the U.N.'s most disreputable and dangerous habits: 
Obsessively bashing Israel. We forced the withdrawal of a false 
and biased report and we have steered the Security Council's 
monthly debate on the Middle East away from unfairly targeting 
Israel and toward the true threats in the region, such as Iran 
and Hamas.
    In the areas in which the U.N. has real value, we have 
built on its good work. Peacekeeping is one of the most 
important things the U.N. does. We are reviewing every one of 
the peacekeeping missions with an eye toward ensuring that we 
have clear and achievable mandates.
    We are also working to ensure that troops are ready, 
professional, and committed to the safety of civilians on the 
ground. Troops in the U.N. peacekeeping mission in the 
Democratic Republic of the Congo, for instance, have long faced 
charges of sexual abuse and other serious misconduct. We 
inserted clear instructions into the mission's most recent 
mandate to enforce performance standards for troops. There is 
no place in any U.N. peacekeeping mission for predatory and 
abusive troops.
    Our peacekeeping reforms are aimed at producing more 
effective missions for vulnerable citizens. We will hold 
governments accountable to their responsibility to protect 
their own citizens while also cutting down waste and 
inefficiency.
    We have adapted the mission in Haiti to changing conditions 
on the ground and are on target to save at least $150 million 
for the year.
    We will continue our reform efforts when we take up the 
peacekeeping mission renewal this month in Darfur, Sudan. Our 
efforts will hold the government accountable to improve 
humanitarian access.
    Mr. Chairman, thank you for this opportunity to highlight 
our efforts to reassert U.S. leadership at the United Nations.
    It is hard to believe it has only been 5 months since I 
moved my family to New York to begin this exciting and 
challenging new chapter. I look forward to more progress in the 
months ahead and I welcome your questions.
    Thank you.
    [The prepared statement of Ambassador Haley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Well, thank you, Ambassador Haley.
    Let me start with this point. This week, the White House 
issued a firm statement, a warning to Syria, after it was 
picked up that Assad, his regime was preparing, potentially, 
for another chemical weapons attack.
    You amplified that message yourself. Have we seen Assad's 
regime take any steps in response to that warning?
    Ambassador Haley. Well, I can tell you that due to the 
President's actions, we did not see an incident. What we did 
see before was all of the same activity that we had seen prior 
for the April 4th chemical weapons attack.
    And so I think that by the President calling out Assad, I 
think by us continuing to remind Iran and Russia that while 
they choose to back Assad, this was something we were not going 
to put up with.
    So I would like to think that the President saved many 
innocent men, women, and children.
    Chairman Royce. Let me ask you a question on the U.N. 
Security Council resolutions that were passed with respect to 
North Korea. We are a few years away from North Korea having an 
ICBM capability that can reach the U.S. and we have this 
question about enforcement.
    We have a second bill in addition to the sanctions bill--
which I and Mr. Engel passed formally and that was signed into 
law--we have a second bill to try to close any additional 
loopholes.
    Specifically, what we are trying to do is to stop the use 
of forced labor by North Korea where they'll have workers sent 
to the Middle East and other countries and instead of the 
workers being paid, the money goes right back into the bank 
account of the North Korean regime and is used on its nuclear 
weapons program.
    So we are trying to cut off that hard currency and trying 
to cut off some of the hard currency that comes out of Beijing 
that subsidizes the regime even with the sanctions that the 
Security Council has passed.
    Can you tell us, if we had enforcement, what would be the 
impact on North Korea's regime and their ability to move 
forward with this nuclear weapons program?
    Ambassador Haley. The more pressure we put on North Korea, 
the better. You are dealing with a paranoid leader who thinks 
that we are trying to assassinate him, who thinks we are trying 
to do regime change, who keeps his public in the dark, only 
hearing what he wants them to hear.
    And what we need to remember is that he is building a 
nuclear program and you are more optimistic saying it is 
multiple years before an ICBM comes forward. I think it is 
going to happen sooner because they are on target to do that 
and they continue to use their people for those violations.
    So I would welcome any sort of pressure that you could put 
forward to slow down that process of nuclear development.
    Chairman Royce. Well, I think this is so critical. 
Secretary Mattis has said that North Korea is the number one 
threat, from his standpoint, and I think key also is to get the 
Senate to take action now and I would suggest immediately. That 
bill has been over there for some time.
    I also wanted to ask you about the Human Rights Council and 
how your efforts to change this system to competitive voting 
rather than regional rotation in order to make sure that the 
Human Rights Council ditches some of its old procedures and 
ditches the anti-Israel focus.
    I mean, we had 70 resolutions against Israel and very few 
to touch on Iran, or rather, human rights abusers around the 
planet. How is that going?
    You sat down with many Europeans when you travelled over 
there to make this pitch to those governments. Can you give us 
an update on that?
    Ambassador Haley. Yes, and I can give you an example that 
will bring it very close to home.
    We have seen terrible things happening in Venezuela and we 
continue to be very, very concerned. And so I called for an 
emergency session in the Security Council for Venezuela and my 
colleagues were not appreciative of that because they said it 
wasn't a peace and security issue and that it needed to be 
heard at the Human Rights Council.
    The problem is that the Human Rights Council never heard 
this or condemned Venezuela because Venezuela sits on the 
council along with Cuba and Saudi Arabia and China, and the 
list goes on.
    So I didn't want to send a statement from New York. I 
thought it was important that I went in person. I explained to 
them that this can't be a place bad actors go to to protect 
themselves and point fingers at others. I told them the Agenda 
Item 7 that picked on Israel, those issues can go to Agenda 
Item 4. Many of them agreed that it discredited the Human 
Rights Council. I do think we were heard and I do hope that 
there's a change.
    Chairman Royce. Thank you. My time has expired.
    I go to Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman.
    I want to piggyback on the question about the Human Rights 
Council.
    First of all, let me say, Madam Ambassador, I heard your 
speech at AIPAC and I thought it was a very fine speech. What 
so aggravates me about the U.N. Human Rights Council is that 
they have the nerve, as I said before, to try to sit in 
judgement of anybody else.
    People should be investigating them for the worst human 
rights abuses and they do it to their own people as well.
    The U.N. Human Rights Council has targeted Israel ever 
since its creation. They have Agenda Item 7. It is a permanent 
agenda item targeting Israel. It is the only country-specific 
agenda item at the council. Obviously, it is ridiculous and 
unfair and the membership of the council is an embarrassment to 
the U.N. Some of the members engage in the worst abuses.
    With all the problems of the council, I do recognize that 
because of U.S. leadership the council has begun to shift its 
scrutiny to some of the world's worst human rights violators. 
According to the American Jewish Committee's Jacob Blaustein 
Institute, U.S. participation has improved the council's 
treatment of Israel to some degree and shifted some of the 
council's focus to human rights violations in North Korea, 
Iran, and Syria.
    At the same time, according to Hillel Neuer of U.N. Watch, 
the 2006 through 2009 U.S. boycott of the council, and I am 
going to quote him, ``did nothing to prevent the council from 
continuing to cause damage.''
    So I have a couple of questions about this. What steps do 
you propose taking to remove Agenda Item 7 from the council's 
agenda and reform criteria for membership of the council? I 
abhor conferring legitimacy on any entity which discriminates 
against Israel or is so one-sided, but I worry, on the other 
hand, if the U.S. withdrew from the council things could 
actually get worse.
    So I would like you to comment on that too--what would be 
the impact of U.S. priorities, including the protection of 
Israel, if the U.S. were to withdraw from the U.N. Human Rights 
Council?
    Ambassador Haley. Well, thank you, Mr. Engel, and that is 
my dilemma, which is are we better off being on the Human 
Rights Council with all of these bad actors where it is very 
hard to give the council any credit or do we do our own human 
rights fights outside of the council.
    That is what remains to be seen. The reason I went there 
was because I thought it was important.
    In reference to Agenda Item 7, when I met with the like-
minded members of the council, they admitted that Agenda Item 7 
was embarrassing. They admitted that it discredited the 
council. They admitted that they thought it needed to come off.
    What we found is there are three main groups that continue 
to use Agenda Item 7. It is the Egyptians, it is the Saudis, 
and it is Pakistan. So those are the three.
    Everyone else has shifted to Agenda Item 4. We actually 
think that the Palestinians would be okay if we shifted to Item 
4 if we talked to those three groups. So that is my focus now, 
trying to talk to those three groups to see how we can shift 
them off of Agenda Item 7. The truth is if somebody wants to 
bring Israel up for a violation that can happen under Agenda 
Item 4.
    But if you don't have an agenda for North Korea, you don't 
have it for Syria, you don't have it for Venezuela, it really 
is nothing more than abusive to have it on Israel, especially 
with all the threats in the world.
    And so I think they took this seriously. I am continuing to 
have meetings on this. We met with Commissioner Zeid and told 
him that we needed his help on this front when it came to that. 
He agreed, and he felt like it was doable.
    So it is going to take a full court press and I am going to 
need all of you to help in terms of pushing that narrative that 
we really want to do that. I think they don't want us to leave 
the Human Rights Council.
    We have just said there have to be competitive elections. 
We have to make sure that it is not already decided who is 
going to be on there and then we have to get the General 
Assembly to not vote for these bad actors. It happened last 
time Russia ran and Russia lost. That was a huge moment because 
typically, the P5 always win an election but that was due to 
what they were doing with Ukraine.
    So there is a possibility of change. We just have to be 
very aggressive about doing that.
    Mr. Engel. Thank you. My time is almost up, but I wanted to 
reiterate some of the things I said before. I get just as angry 
at the U.N. as anybody when you think that they take us for 
granted.
    But I don't want to cut off my nose to spite my face. The 
United States' presence at the U.N. is very, very important and 
I worry about the President's proposed budget cuts to U.N. 
funding and I wish that the administration would take another 
look at that.
    Nine of your predecessors signed onto a letter in support 
of the continued payment of U.S. voluntary and assessed 
contributions to the U.N., saying the cuts weaken our hand, 
alienate allies, and cost us more over the long run. I wonder 
if you could quickly comment on that.
    Ambassador Haley. My job was to go in and see if I could 
find value in the U.N. That was the directive all of you gave 
me. That was the directive the President gave me.
    There are a lot of places that the U.N. is very effective. 
There is a lot of fat around the edges and some abuses that 
happen at the U.N.
    But I do think it is very important that we make the most 
of it and I will tell you that, from the President's budget, 
keep in mind that that was more of making a point. It was 
making a point that he wanted to strengthen the military and it 
was putting the United Nations on notice, and it worked. And I 
have used that as leverage because now we are seeing a lot of 
the other countries come forward and say yes, we should do 
reform.
    When it comes to peacekeeping reform, they have worked with 
us on every single renewal to change it to make it smarter, to 
make it better work for the people.
    When it comes to management reform, they are working with 
us on changing it. So I really do think the message was 
effective and my hope is that I can be your conduit in terms of 
working from the President's budget to where you all have to 
make some decisions to help exactly what I think is important 
in order for us to continue to have a strong voice at the U.N.
    Mr. Engel. Thank you.
    Ambassador Haley. Thank you.
    Chairman Royce. Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Ambassador Haley. Good morning, and thank you.
    Ms. Ros-Lehtinen. Welcome, Madam Ambassador. You have done 
an admirable job in your first few months and have demonstrated 
strong leadership at the U.N.
    I also want to commend you for your forceful words against 
the Maduro regime. Thank you for speaking out so strongly in 
support of the Venezuelan people.
    Things have taken a turn for the worst. Just in the last 24 
hours, as you know, there was a helicopter attack targeting the 
Supreme Court by Maduro, and Maduro-controlled armed colectivos 
surrounded the National Assembly. So the violence is 
escalating.
    And thank you to Mr. Deutch for bringing up Venezuela with 
the Secretary-General yesterday. What actions are you 
considering to hold Maduro accountable at the U.N.?
    Are you considering Security Council actions or sanctions? 
I know it is a difficult environment for you. How can we put 
pressure so that Maduro at least allows humanitarian assistance 
to help the people?
    And let me just quickly touch on two other topics, Madam 
Ambassador.
    I have introduced legislation over the years that exposes 
problems and offers solutions on UNRWA, particularly the 
incitement issues, the ties to Hamas from its employees, and 
the fact that U.S. taxpayer dollars are used to support this 
violence.
    UNRWA's mandate was extended, lamentably, through June 
2020. How can Congress help to shift UNRWA's mandate to the 
U.N. High Commissioner of Refugees? Because three more years of 
this is unacceptable.
    And lastly, the Human Rights Council is in the process of 
creating a black list, a database for supporters of BDS to use 
to target Israel's interest.
    Where does this database effort stand right now and what 
are we doing to kill this effort and prevent it from doing harm 
to Israel? Thank you, Madam Ambassador.
    Ambassador Haley. Thank you.
    So, first, on Venezuela, because the Human Rights Council 
would not hear the issue on Venezuela, we had the emergency 
Security Council meeting in New York.
    But then when I went to Geneva, we had a meeting outside of 
that to just discuss Venezuela's issues to bring it home to the 
Human Rights Council that they needed to do this.
    The region very much didn't want us to talk about it and 
said that this would make things worse. But as you saw with the 
OAS, when they attempted to talk about it, Venezuela got out of 
the OAS and then recently the OAS met again and they----
    Ms. Ros-Lehtinen. And we didn't have the votes.
    Ambassador Haley [continuing]. And they were unable to do 
anything.
    Ms. Ros-Lehtinen. That's unbelievable.
    Ambassador Haley. So I can tell you, we need to keep the 
pressure on Maduro. There are signs that he is now going to 
start using his military and use weapons and anything you've 
seen on TV----
    Ms. Ros-Lehtinen. He has been doing that.
    Ambassador Haley [continuing]. It is so much worse. It is a 
terrible situation. And so as much pressure as we can continue 
to put on Maduro that we are watching.
    Ms. Ros-Lehtinen. Almost 80 people dead, thousands 
arrested, thousands in jail.
    Ambassador Haley. It is horrible. They just----
    Ms. Ros-Lehtinen. And he is acting with impunity.
    Ambassador Haley. They just want to be heard. They just 
want to be heard, and it goes back to any government that 
doesn't listen and take care of their people, conflict will 
follow. It is a direct correlation.
    Ms. Ros-Lehtinen. Please keep acting on behalf of the 
people.
    Ambassador Haley. And we will continue to do that.
    Ms. Ros-Lehtinen. Thank you. On UNRWA and BDS?
    Ambassador Haley. So on UNRWA I will tell you I actually 
went and visited an UNRWA camp when I went to Israel----
    Ms. Ros-Lehtinen. Yes.
    Ambassador Haley [continuing]. And the Palestinian area. I 
asked about the books and what we were seeing. They think they 
have gotten it down. They said the problem comes into the 
culture versus what we think is incitement. They are continuing 
to work on it. We are continuing the pressure on----
    Ms. Ros-Lehtinen. Baloney.
    Ambassador Haley. We will continue to do that. I do think 
that we need to look at UNRWA in a way that we expect more of 
them and put pressure on them so that we can get the changes 
that we need to have--changes in what they consider to be a 
refugee, changes in any textbooks on incitement, changes in 
Hamas members teaching in the schools. There is work to do. I 
will say that there is also good that comes out of UNRWA. What 
they do with the schools and the health care you do see value 
in it. But I think we just need to continue to pressure them on 
the things we want to see changing.
    Ms. Ros-Lehtinen. Thank you. And on BDS?
    Ambassador Haley. The concern on UNRWA is they are now 
trying to get assessed contributions in the U.N. and we are 
fighting that back desperately.
    On BDS, it is something I spoke about in Geneva and said 
that it was a problem. I am very concerned. I am very concerned 
that we may not be able to defeat this.
    But we are trying extremely hard to show that this is 
something that cannot happen. As governor in South Carolina, we 
were the first state to fight it off.
    I know how dangerous and abusive this would be and so we 
will continue fighting this the whole way through.
    Ms. Ros-Lehtinen. Thank you. Keep kicking butt. Thank you.
    Chairman Royce. Brad Sherman of California.
    Mr. Sherman. Madam Ambassador, thank you for your work on 
behalf of the people of South Sudan, your briefing on April 
25th, and I hope you are able to achieve our objectives there.
    I also want to thank you and join with my colleagues on 
thanking you for your efforts to refute and to halt the U.N.'s 
obsessive tendencies with unjustified attacks on Israel.
    I hope that you are pushing inside the administration to 
get them to fill the empty boxes on the organization chart. 
Now, Rex Tillerson has praised the people who are filling the 
acting positions--you know, Acting Assistant Secretary, Acting 
Under Secretary.
    My wife has been with the State Department for 20 years, 
all over. You can't get policy direction from somebody who's 
got the big word ``temporary'' on their door.
    Until we get those positions filled with people that 
reflect where the administration wants to go, we won't have 
foreign policy in the hundreds of areas that you and the 
Secretary of State can't personally address.
    The world is better when the United States is involved. We 
are involved in the United Nations. We are not necessarily 
going to be paying our dues or our share of peacekeeping.
    Is it easier or harder for you to do your job if we don't 
pay our dues?
    Ambassador Haley. Okay. Thank you for that.
    Yes, we will continue to work on South Sudan. I will be 
visiting there in the fall to deal with it head on.
    Israel--I will continue to call them out every time that 
happens.
    I hear you on the State Department and what you told 
Secretary Tillerson. We have worked really hard to fill the 
roles at U.S./U.N. and are almost there. So thank you for that.
    In terms of the peacekeeping budget, what we did was----
    Mr. Sherman. Both the peacekeeping and the dues budget. 
Yes.
    Ambassador Haley. Peacekeeping and----
    Mr. Sherman. My question was both. We have our general U.N. 
dues. The line item for that in the President's proposed budget 
is cut 27 percent.
    Ambassador Haley. Right.
    Mr. Sherman. Peacekeeping 37 percent. Does that diminish 
your ability to do your job or does it make your job easier?
    Ambassador Haley. No, my job has worked well because I have 
used that as leverage. With every single renewal what we did 
was we looked at the political solution. We asked, is it 
working--is it actually helping the people on the ground?
    What they have done in the past is with challenged areas, 
they would just send more troops to it. Well, if the troops 
aren't trained and the troops don't have equipment, it is not 
going to be effective. So what we have now done is changed the 
mandates to make sure they are smarter.
    Mr. Sherman. Ma'am, I've got to cut you off there because 
I've got this list----
    Ambassador Haley. Well, let me just tell you this. We just 
negotiated the peacekeeping budget last week and I was so proud 
of my team because we cut it by $\1/2\ billion and that was 
with the support of everyone----
    Mr. Sherman. But now that it is a budget you like, should 
we contribute our allotted share?
    Ambassador Haley. I think that you could comfortably go to 
25 percent and know that we will be okay.
    Mr. Sherman. Twenty. Russia--we have a bill that passed the 
Senate to impose sanctions on Russia and Iran. It has its 
congressional review provisions.
    I have been here a long time. The only way we got the 
sanctions on Iran was to overcome efforts of the last two 
administrations who wanted either no sanctions or wanted the 
administration to be able to just wave a wand and say, well, we 
don't like them so we are not going to do them.
    Is the administration lobbying to change the congressional 
review provisions of the Senate-passed Iran-Russia sanctions 
bill?
    Ambassador Haley. I am not aware that they are lobbying for 
anything. I do know that they are reviewing it.
    Mr. Sherman. Okay. Other administration----
    Ambassador Haley. They also renewed recently the sanctions 
on Russia in reference to Ukraine. Those were renewed last 
week.
    Mr. Sherman. Other administration officials have testified 
that they haven't spoken with the President regarding Russian 
interference in last year's election. Have you talked to the 
President about that?
    Ambassador Haley. I have not talked to the President about 
that. And, look, I think the best thing that can happen is for 
those investigations to play out quickly.
    I have no reason to think that there was any sort of 
involvement between the President and Russia and----
    Mr. Sherman. I am going to try to move on to one last 
question. The U.N. Security Council Resolution 2231 bans or 
deters Iran from testing ballistic missiles. Is the Security 
Council incapable of addressing Iran's violations of that 
resolution?
    Ambassador Haley. Well, we are going to push hard to 
address it. They have tested. They have launched ballistic 
missiles and now we are seeing that they are sending off 
weapons and things to bad actors and so yes, we have to 
continue to address that. The problem is Russia will always 
veto it.
    Mr. Sherman. Thank you.
    Chairman Royce. We go now to Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Ambassador Haley. Good morning.
    Mr. Smith. Thank you for convening this important hearing. 
Good morning, Madam Ambassador. Thank you for your strong and 
effective leadership. It is principled.
    I know, talking to many of the diplomats in New York, how 
respected you are. You have absolutely made a mark and you're 
deeply respected up here. So thank you for that leadership. 
There is no better friend or diplomat or otherwise for Israel 
and we thank you for that as well.
    Yesterday, Rex Tillerson, Secretary of State, rightly 
designated China as a Tier 3 country--the Chinese Government, 
the worst violator for sex and labor trafficking.
    I want to thank you, the administration, for making that 
bold and, I think, long-missed call. For years we have been 
asking China, whether it be sex trafficking, somewhat 
attributable if not largely attributable to the missing girls--
62 million missing girls because of sex-selection abortion. 
There is no other parallel in the world, and on labor 
trafficking, whether it be North Korea or the problems of just 
exploiting workers through what was thought to be a reform of 
the laogai system, which didn't really happen. Thank you for 
that designation. It is very well accepted.
    Let me ask you about Liu Xiaobo. Obviously, a Nobel Prize 
winner who has terminal cancer. He is still in China. He is out 
of prison, we are told, getting medical care and I know the 
administration has already asked, through our Ambassador, that 
he be allowed to come here and get treatment along with his 
wife, who has suffered de facto.
    Whatever you can do, and I know you have a good working 
relationship, even though I am sure you butt heads occasionally 
with the Chinese Ambassador.
    Let him come and let him come now, please. So I would ask 
you for that.
    Let me ask you, too, on the Special Envoy to Monitor and 
Combat Anti-Semitism, that post has not been filled. I am the 
one who offered the amendment in the year 2004 to establish it.
    It remains unfulfilled and rightly so the American Jewish 
groups are very, very upset by that omission. Fill it. Put the 
people in there. Don't double hat it, I would ask, 
respectfully.
    There is so much of a rise in anti-Semitism and it is 
needed now and that person, whoever he or she may be, can walk 
point on trying to stop this terrible hate that is on the rise 
around the world.
    Let me also just say thank you. Karen Bass and I were in 
South Sudan just a few weeks ago. I was there earlier in 
August. We met with Salva Kiir and the change in UNMISS is 
remarkable.
    They were a garrison military, U.N. deployment, that sat 
and did nothing when the Terrain compound was attacked, 
including a woman from my own district who was sexually abused. 
They just sat there, did nothing.
    We now, through your great leadership, have a very 
effective, much more robust, mandate by UNMISS. So I want to 
thank you for that leadership and I know you worked hard on 
that.
    On famine, and you might want to speak to this, we are 
concerned. Both Karen Bass and I were in refugees camps, two of 
them, and one IDP camp in Unity State, and there are shortages, 
particularly in Uganda.
    There was a 50 percent cut in food and I know there is some 
$990 million that has been appropriated in the appropriations 
bill. Our hope is that it does not carry over into next year. 
It needs to be spent now. These people, mostly women, 85 
percent of the people in the camps are women or children, they 
are in desperate need of food security and food aid. So please 
make sure that money gets out.
    And finally, on WIPO--I know we are running out of time--
but last year we had three of our subcommittees--including 
Ileana Ros-Lehtinen's--held a hearing on illicit transfers to 
rogue states of North Korea and Iran by the World Intellectual 
Property Organization and its Director General, Francis Gurry.
    Gurry retaliated against the whistleblowers who exposed the 
wrongdoing and today we have people who have lost their jobs at 
the U.N. because they did the right thing.
    Please--this is a injustice. This has to be corrected. I 
ask for your personal intervention on that.
    Ambassador Haley. Thank you.
    So in reference to the person being held in China, letting 
them go, we are all on it at different levels of the 
administration. That is moving. In terms of the envoy for anti-
Semitism, we welcome all the help we can get because I agree 
with you on that.
    In terms of South Sudan, we are seeing baby step progress 
in that area but it is a baby step. We continue to work on 
that. Like I said, I will be visiting in the fall to speak with 
President Kiir myself on behalf of the United States to see if 
we can put some pressure there. Also, know that South Sudan has 
fallen off the famine list but it is still food insecure. It is 
still very volatile. It is still a vulnerable spot.
    Famine is on our radar across the board in all four of the 
regions that we need to be looking at and so we are watching 
that closely and working on that. And yes, WIPO--we continue to 
work with them and work on issues that come up and we will 
always do that. So please feel free to contact me any time.
    Chairman Royce. Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Madam Ambassador, I am actually stunned at the response 
that you just gave back to Mr. Sherman that you've never spoken 
to the President of the United States about Russia's 
involvement in our democracy, never talked to the President of 
the United States. We have to deal with Russia and the biggest 
question that we have had recently is Russia's involvement and 
what they have done to our democracy and for not to have had a 
conversation with the President of the United States about that 
involvement is absolutely shocking to me.
    Secondly, you mentioned the word betrayal in your opening 
statement. Well, I want you to know that that's an appropriate 
word to describe what I am hearing from my constituents and 
fellow Americans and our allies all across--at home and abroad.
    They feel a sense of betrayal because of the way that the 
Trump administration has diminished America's leadership and 
global standing. Our allies have expressed their sense of 
betrayal and mixed messages coming from the President and I 
believe this budget proposal is a betrayal of our nation's 
interests.
    So while you mentioned a sense of betrayal regarding a 
single U.N. resolution, I hope you recognize the deep sense of 
betrayal that many Americans are feeling right now as the 
administration pursues a path of isolation.
    Recent Pew polling shows that America's global image has 
been significantly hurt by President Trump. One exemption--
Russia. They have confidence in him. And I know that this 
matters when it comes to diplomacy and our ability to 
successfully engage internationally.
    You mentioned earlier about human rights. Yet, when the 
President went to Saudi Arabia there was no mention of human 
rights. When he went to Egypt there was no mention of human 
rights. When he met with the Chinese there was no mention of 
human rights. When he had the Russians in his office giving 
away national secrets there was no mention of human rights.
    So I am concerned about--yet, when he went to Europe where 
our allies are, he was critical of them and criticized them.
    So it seems to me that the actions of the President of the 
United States will make your job a very difficult job because 
you're supposed to be working with everyone and with the 
decrease in confidence in the United States, it seems to me 
that that would complicate your job to advance our national 
interests.
    And then it seems as though we are not sure when you say 
one thing and the President comes back and he says something 
else.
    So how do you handle situations in which the White House 
contradicts or overrides something you have publically said or 
the Secretary of State has publically said as regards to U.S. 
policy?
    Who determines what that U.S. policy is? And given all 
this, especially with the Pew polls, that's going on it seems 
as if we have lost a lot of our leadership around the world.
    Ambassador Haley. Thank you, Mr. Meeks, and I want to know 
what coffee you're drinking this morning because I need to 
start drinking that.
    First of all, let us go through because I want to answer 
all of these. These are very important questions. First of all, 
with Russia--my conversations with the President are very much 
how you have seen me bash Russia on Ukraine.
    You have seen me bash Russia on Syria. You have seen me 
call out Russia if we see any sort of wrongdoings by Russia 
and, yes, I do think Russia meddled in our elections and, yes, 
I have said that to the President.
    So having said that, I haven't asked the President any 
further questions because I just--it is not something that is 
on my radar. I don't get asked about any of those things at the 
United Nations.
    So I am very focused on my work in New York and that has 
never come up once. There are no issues with Russia that have 
come up once by any member state in the U.N. and so that is the 
focus.
    U.S. leadership and our global standing--Mr. Meeks, we have 
really put a strong voice of the U.S. at the U.N. I mean, they 
know we are back.
    They know we are strong, and I will tell you when the 
action took place to strike Syria the number of Ambassadors 
that came to me and said, it is so good to see the U.S. leading 
again. Very important.
    Mr. Meeks. Did we lead? We pulled out of the Paris 
agreement.
    Ambassador Haley. Okay. I am going down your list.
    Mr. Meeks. Okay. I am just talking about how we are pulling 
out.
    Ambassador Haley. I understand.
    Mr. Meeks. We pulled out of a number of international--we 
have a President that has indicated that he wants to do 
bilateral, no multilateral, agreements. That he has no 
confidence in multilateral organization.
    Ambassador Haley. He supports me at the U.N. and he 
supports what I am doing at the U.N. When you talk about human 
rights, I was the first person to ever bring up human rights at 
the Security Council.
    I went to Geneva to talk about human rights. I have been on 
it in terms of Venezuela, what is happening in South Sudan, all 
that. The President supports me on that.
    So when you talk about different views and those things 
that are happening, we are on the same team. For me to talk 
about it, he is supportive of that and so----
    Mr. Meeks. You have said it. The President hasn't.
    Ambassador Haley. I work for the President and I don't go 
rogue on the President. He is very aware of what I am doing. He 
is very supportive of it and I can tell you that in all of 
these issues we are not apart on it.
    He believes as strongly on the things I talk about as 
anyone else and I would invite you to come to the United 
Nations so you can see for yourself the strength the U.S. is 
showing there because it is strong, it is heard, and it is 
valuable.
    Chairman Royce. We are going to go to Mr. Dana Rohrabacher 
of California.
    Ambassador Haley. Thank you.
    Mr. Rohrabacher. Thank you very much. Pretty strong coffee 
there, Gregory. Pretty strong coffee. I don't drink coffee 
myself.
    Ambassador Haley. I don't either. I might start.
    Mr. Meeks. I don't drink coffee, either. I am just 
concerned about my nation.
    Mr. Rohrabacher. Okay. Well, let me just note that I think 
betrayal is a very rough word and I would suggest that anyone 
who voted for giving $150 billion to the Iranian Government, 
making that available, shouldn't be talking about the words 
betrayal.
    Mr. Meeks. I didn't use it. She did.
    Mr. Rohrabacher. Okay. That's noted.
    Madam Secretary, I would like to, number one, join my 
colleagues in suggesting that Venezuela is something really 
important to look at and those people down there.
    Venezuela used to be a shining example of how freedom can 
work, and although there were a lot of problems people were 
working together there peacefully. And now for that to 
degenerate into what it is, if we can lend a hand there both at 
the United Nations and through you as a spokesman there in the 
United Nations, make sure they know how concerned we are.
    We should also be concerned about Turkey. Turkey is going 
exactly the wrong way and these are things that we inherited 
from the last administration, let me just note. This is--
Venezuela just didn't happen now. It has been headed that way. 
I am sorry--the last administration did not do what needed to 
be done. We need to do more in that area to support the good 
people there in Venezuela and Turkey. Let me note, we also need 
to support the good people in Iran. Rather than giving $150 
billion to their oppressors, we should be seeing what people we 
can actually be supportive of in Iran who oppose the mullah 
regime.
    So I would hope that in the United Nations that as these 
debates rage that those are the type of points that can be 
made. I would like to ask you about--how much money do we 
spend--you said it is 22 percent of the U.N. budget. How much 
is that all together?
    Ambassador Haley. $600 million.
    Mr. Rohrabacher. $600 million. And how much does China pay 
in their dues? Do we know?
    Ambassador Haley. A lot less. A lot less.
    Mr. Rohrabacher. A lot less.
    Ambassador Haley. But I am happy to get you that number.
    Mr. Rohrabacher. Okay. Well, I am just saying that because 
I think that when we have a body like the United Nations and 
such a high proportion of their budget comes from us and for us 
to be the whipping boy or our friend, Israel, become the 
whipping boy, I think that should be unacceptable and you can 
rest assured that those of us on this committee will be backing 
you up when you make such stands.
    My friend, Chris Smith, mentioned sex and labor trafficking 
in China is something we have ignored up until now and I would 
hope that these human rights issues do become part of President 
Trump's agenda, let me note, and I think, by the way, we only 
have the last administration for 8 years to compare what 
President Trump is doing.
    I think President Trump is doing a great job--doing a 
fantastic job. How many American Presidents--instead of going--
this American President went to Saudi Arabia and talked to the 
leaders of the Islamic world and said if you want to be friends 
with the United States, drive the terrorists out of your 
mosque. I have never been more proud of a President since 
Ronald Reagan said, ``Tear down this wall,'' and I think it was 
equivalent to that.
    So I would hope that those people who are just anti this 
President or trying to play politics with it--and just one last 
note.
    Russia is a flawed country--is a flawed state. I will just 
have to say that we should be making overtures to see if Russia 
can help us bring peace in the Middle East, especially in 
Syria, rather than trying to basically alienate Russia more and 
more and more because there are bad guys.
    The Syrians aren't the only bad guys in that region. Many 
of our own allies are just as dictatorial and bad as Assad is.
    So let us hope that we can try to establish a more positive 
relationship with Russia that will help bring peace to that 
part of the world and help all of us.
    Thank you very much.
    Ambassador Haley. Thank you, and I will do this very 
quickly.
    I will continue to be a thorn in Maduro's side when it 
comes to Venezuela. I will continue to do that for human rights 
in any country that is an abuser of that.
    In terms of Russia, I agree with you. General Mattis 
continues to work with Russia because we do need to work with 
them on Syria and we can work them on counterterrorism. And so 
we are trying to find the places where we can work with them 
but we are going to call them out in places that we have to.
    Mr. Rohrabacher. Thank you very much.
    Ambassador Haley. Thank you.
    Chairman Royce. Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman, and I want to just say 
to my friend, my colleague, from South Carolina, what a great 
introduction.
    I just have a question. Which job did you like better? 
Being in South Carolina as the governor or being in the Big 
Apple in New York?
    Ambassador Haley. Ask me----
    Mr. Sires. I am only kidding.
    Ambassador Haley [continuing]. Ask me in 6 months.
    Mr. Sires. You don't have to answer that.
    Ambassador Haley. Ask me in 6 months.
    Mr. Sires. Madam Ambassador, you know, I think some of us 
are frustrated. I did not grow up in this country. I grew up in 
a country where, you know, the Soviet Union just basically 
tried to indoctrinate everybody on the destruction of this 
country--how this is the worst country in the world, how we 
have to destroy democracy--and I guess the frustration that we 
have is that the President doesn't seem to share that view.
    He doesn't seem to speak strongly enough on what Russia is 
doing interfering with the democracy of this country, how he is 
trying to undermine this country, how he is trying to basically 
destroy what we stand for.
    It seems that everybody around him certainly speaks enough 
about it but he is the biggest voice. You have a great voice. 
But he is a lot bigger, and I wish, you know, he would come and 
say, look, this is happening--they did meddle--they did try to 
undermine our democracy, and I think that is part of our 
frustration.
    The other thing I want to commend you on raising the human 
rights issue, and I promised the state troopers in New Jersey 
that I was going to raise this issue of Joanne Chesimard, who 
shot a state trooper in New Jersey and has fled to Cuba and has 
been living there as a hero for the last 40 years. If you could 
talk to the President, you know, mention to him that we want 
this--this criminal back so we can continue our--the justice. 
So if you can talk a little bit about that.
    And, obviously, Venezuela, I am very concerned about 
Venezuela. I saw a tape last night where one of the police 
officers shot through a fence a young boy just point blank. I 
mean, it is, you know, horrible.
    And the last thing is, I don't know how you walk through 
the halls of United Nations. The hypocrisy there is just 
beyond. When you have human rights leaders in that commission 
who are some of the worst offenders in the world. So if you can 
just talk a little bit about that.
    Ambassador Haley. I can.
    In terms of Russia, the only thing I can tell you is that I 
have done a strong share of Russia bashing while I have been at 
the U.N. The President has not called me once and said to stop 
it and has not in any way told me, don't bash Russia. I hope 
that you will understand that he very well could have but he 
hasn't.
    In reference to the Cuban criminal, yes, I am on it. I will 
make sure that we do something and see what we can do to get 
the administration--the administration has been very good about 
getting people home and it is something that it is on a 
priority. So I will also work and make sure that that is on our 
list.
    Venezuela--huge concern--huge concern in every way. I can't 
bring enough attention to what the Venezuelan people are going 
through and how we are seeing more and more aggression by 
Maduro. If you heard his speech yesterday, he very much is 
saying he is going to use military action. He is very much 
saying that he is going to get more aggressive and he is 
blaming the protestors for trying to overthrow his government 
when all they want is true democracy on that front.
    And then in the U.N., you know, we work--it is just like 
your work here. I have to work with certain people and on some 
issues we agree and on some issues we don't. But I have a loud 
voice on both of those.
    So when it is time to work with China, I do. But at the 
Human Rights Council I called out China. I called out Saudi 
Arabia. I called out Cuba and Venezuela.
    And so I will continue to do that because it--what we try 
not to do is isolate anyone. We try and make sure where we can 
work with them we do. But we are not shy about calling them out 
when we need to.
    Mr. Sires. Ambassador, do we have any kind of a plan in 
case Maduro moves the military and--I think this--he's in the 
final stage of just, you know, becoming a dictator. He already 
is, but I think it is going to just get worse.
    Do we have any plans? Are we talking to any members around 
there? Because I think you are going to have an exodus. You are 
going to have people leaving. Already I know Panama has told me 
that they are having a lot of people coming over. Colombia has 
a lot of--so do we have any plans?
    Ambassador Haley. So I think there are plans in couple 
places. One, we brought it up at the Human Rights Council. 
Second thing, we were hoping for OAS. We didn't see that. I am 
going to continue to push the Security Council.
    I would welcome any support that you all can give in terms 
of that. But I think now we have to go back to the Security 
Council and do something about it there. The U.S. is also 
reviewing the policy there on what we would do if this got 
worse. So I know within our National Security Council meetings 
that we have Venezuela is very much coming up on the radar as 
well.
    Mr. Sires. Thank you very much.
    Ambassador Haley. Thank you.
    Chairman Royce. Steve Chabot of Ohio.
    Mr. Chabot. Thank you very much, Mr. Chairman, and thank 
you very much, Ambassador, for being here today.
    I had the pleasure of meeting you in the Capitol building 
for the first time last week when you met with a number of 
members and thank you for your time then and thank you for your 
time now, and a whole lot of us have been very impressed with 
what we have seen and heard thus far since you have entered 
into your current position. So thank you for your leadership--
--
    Ambassador Haley. Thank you.
    Mr. Chabot [continuing]. At this important time in our 
history. I am going to repeat to some degree, first of all, 
what a number of other members have expressed as a big concern 
of theirs. It is mine as well, and that is the U.N. Human 
Rights Council.
    It seems that they spend an inordinate amount of time--it 
seems like most of their time, really, criticizing one of our 
most important allies, Israel.
    And as you know, you recently stated to the council, ``It 
is essential that this council address its chronic anti-Israel 
bias if it is to have any credibility,'' and I certainly agree 
with you in that respect and I would perhaps even go further.
    I don't know if it is possible for them to gain credibility 
after the waste of time that they have spent criticizing 
Israel. So I, again, welcome your input--anything you would 
like to tell us on that issue.
    Ambassador Haley. Thank you, and I had referred to the 
Human Rights Council before.
    The reason I went to Geneva was very much to say it to them 
and not just send a statement from New York, and we just said 
for the United States to be involved in the Human Rights 
Council they have to give us a reason to be because right now 
we are going to be for human rights. It is either going to be 
inside or outside the council.
    What you saw was a lot of other countries are embarrassed 
by Agenda Item 7. They get that it discredits them and they 
understand something needs to happen. What they have suggested 
is that it is Saudi Arabia, Egypt, and Pakistan that continue 
to use Agenda Item 7. We are now going to try and work with 
those three and see what we can do to get that to stop because 
I think that is incredibly important.
    I also think we need to have competitive elections. You 
know, when you have Cuba and Venezuela and Saudi Arabia and 
China and all of these on the Human Rights Council there is 
something very wrong, and what it has become over the years is 
a place that bad actors go to sit to keep the sunlight from 
shining on them. It very much embarrasses these countries when 
human rights is brought up and it is very much the reason they 
don't want me to bring it up in the Security Council but I will 
continue to do that.
    So that is why we have a decision to make and we will see 
if they make any proactive changes to the Human Rights Council 
and then we will decide whether the U.S. is better to be in it 
or off of it. But that is a dilemma that we are still going 
through.
    Mr. Chabot. Thank you. I agree with you completely.
    Let me turn now to Korea. We have 28,000, approximately, 
U.S. troops there and as we all know, they had elections 
recently and they have a new President who tends to be more on 
the left than the previous government was.
    And one of his first acts was to suspend deployment of the 
THAAD missile defense, which I think was a big mistake. They 
have put, I think, our troops at risk and President Trump said 
as much recently when he said he didn't feel that our troops 
were safe there.
    It would seem to me that we ought to give South Korea a 
choice. They have the choice of having the most sophisticated 
missile defense system--the THAAD system--to defend them and to 
defend our troops so they get the missile system and our troops 
or they have no missile defense and no U.S. troops.
    I think it ought to be a very clear choice to them and they 
need to face that choice head on. I think it really is 
irresponsible for us to allow our troops--it was different when 
we didn't have that capability. We had troops there for many 
years and the North Koreans were always a threat. We have 
troops all around the world that are at risk. But I think it is 
an unreasonable risk when we have the ability now to defend 
those troops and that government, in cooperation with us, could 
defend those troops much more effectively and I would welcome 
your comment on that.
    Ambassador Haley. So I think that THAAD is something that--
what we saw was Moon was very cautious going into it but he has 
actually made good strides toward us and away from North Korea 
on many levels and, you know, those missiles that continue to 
be tested continue to push in the other way.
    I do think he was trying to slow walk THAAD to see where it 
was going to be. I also think he's getting pressure from China 
to get rid of THAAD. China is the number one country pushing 
them to get the THAAD system out.
    At the end of the day, I personally believe it is going to 
work itself out. But I also know that the administration, the 
second we see something that's not going in the favor of 
protection of our troops, then I know the President will act.
    Mr. Chabot. Thank you very much.
    Ambassador Haley. Thank you.
    Chairman Royce. Gerry Connolly of Virginia.
    Mr. Connolly. Welcome.
    Ambassador Haley. Good morning.
    Mr. Connolly. Welcome, Madam Ambassador. Glad to have you 
here today.
    You indicated that the budget was making a point more than 
it was a serious intention in and of itself. What point was 
being made by zeroing out funding for UNICEF, an organization 
that is highly praised, had a lot to do with saving millions of 
children's lives around the world with child nutrition 
programs, rehydration programs from diarrheal diseases and the 
like, highly lauded, not political--why would we zero it out? 
What point was being made in that budget?
    Ambassador Haley. So I think that what you saw in the 
budget was, it was trying to put the U.N. on notice. It wasn't 
about the specific organizations as much as it was putting them 
on notice.
    I can tell you that I have seen UNICEF in action when I 
went to Jordan and Turkey and to see the schools, and what they 
do is highly valuable.
    I believe I am a conduit between what the President's 
budget did and where you end up. So I am happy to give any 
information on what's working, what is not working or what I 
see as valuable.
    Mr. Connolly. But Madam--but Madam Ambassador, I have been 
doing budgets up here and in my local government for over 30 
years. When you zero something out you are not making a point. 
You are making a profound statement and judgment about the 
value of that enterprise.
    Ambassador Haley. I am----
    Mr. Connolly. To zero out UNICEF seems to be to be 
something that is not a particularly proud value that Americans 
would uphold.
    Ambassador Haley. Well, I can tell you that as governor I 
also had a budget and an executive budget very much is a 
conversation point. It is a starting point and then you work 
with your legislature to bring those two together.
    And so I think what you have is that the President was 
trying to make a point to build up our military. Yes, it ended 
up going to where it had certain cuts there. I will----
    Mr. Connolly. I don't think you want to go there.
    Ambassador Haley. I am sorry?
    Mr. Connolly. I don't think you want to go there.
    So the President was making a point we need to build up our 
military and people who need to pay the price for that are 
children around the world who are at risk of malnutrition?
    Ambassador Haley. I know that having had conversations with 
the President on this budget and where Congress ends up there 
is working room. There is room where I know that he would want 
to support UNICEF.
    Mr. Connolly. You are a loyal member of the administration. 
Good for you.
    Zeroing out UNICEF makes no sense to me and it is not 
making a point. You said members up at the U.N. are just so 
glad we are ``leading again.''
    Are those the same members who have condemned President 
Trump's ripping up of the TPP and renouncing the Paris 
agreement? I am looking at some close allies, some of whom are 
members of the Security Council like France and--and not 
Germany, but Germany certainly wasn't praising America's 
leadership on those things.
    Ambassador Haley. Well, I can tell you again, as a 
governor, with that Paris agreement the number of regulations 
it put on our businesses, the number of things it did with me 
trying to recruit international companies and how that----
    Mr. Connolly. I wasn't asking that question, Ambassador. I 
am sorry. I only have 5 minutes.
    Ambassador Haley. Well, I am trying to----
    Mr. Connolly. My question was whether your colleagues at 
the U.N. were praising those decisions as that is America 
``leading again.'' I am quoting your words.
    Ambassador Haley. The U.S. has to make decisions that are 
in the best interest of the U.S. It is not in the best 
interests for our businesses or our industries. We are not 
going to throw the climate out the window.
    Mr. Connolly. Well----
    Ambassador Haley. We are going to continue to manage that.
    Mr. Connolly. I am glad to hear that.
    Ambassador Haley. And you may not agree with how we manage 
that but I will tell you that I think what the President did 
was in the best interests of businesses and it was in the best 
interests of the country and that does not mean we are not 
going to be good stewards of the climate. And we don't want----
    Mr. Connolly. Well, that would come as news to a lot of big 
businesses that endorsed it.
    Ambassador Haley [continuing]. We don't want China and 
Russia telling us how we need to handle our climate. I think 
that it is very much point that----
    Mr. Connolly. Excuse me. We helped initiate the Paris 
agreement. They didn't put a gun to our heads at all.
    Ambassador Haley. But it didn't go through the Senate----
    Mr. Connolly. Well----
    Ambassador Haley [continuing]. And it didn't get passed----
    Mr. Connolly. Well, it is a proud moment that we are 
joining two other countries in the international community--
Nicaragua and Syria.
    Ambassador Haley. We are being independent.
    Mr. Connolly. It must be a proud moment.
    Ambassador Haley. We are being independent.
    Mr. Connolly. Can I ask you, finally, what instructions 
have you been given about Russia? Presumably, you talk to your 
Russian counterparts about Syria, right?
    Ambassador Haley. I talk to my Russian counterparts about a 
lot of things.
    Mr. Connolly. But not their interference with U.S. 
elections. That is off limits?
    Ambassador Haley. I mean, what would you want me to say to 
them? I am at the U.N. We are working on international issues. 
I have made it public that I do believe they interfered with 
our elections. I have also said we can't have any country 
interfere in our elections and I stand by that.
    Mr. Connolly. I understand. But you now hold a very 
important diplomatic position at the United Nations. The 
Russians are at the United Nations. We talk about a panoply of 
issues, as you just indicated.
    But why wouldn't we--have you received any instructions at 
all with respect to their meddling in our elections, like, 
don't talk about that, Ambassador Haley?
    Ambassador Haley. It hasn't come up.
    Mr. Connolly. It has never come up?
    Ambassador Haley. At the United Nations, it----
    Mr. Connolly. No. No. I am talking about Washington. Have 
you received instruction from the State Department, don't talk 
about that?
    Ambassador Haley. No.
    Mr. Connolly. Any instructions at all about it?
    Ambassador Haley. None. I have said what I have said, I 
have been on the record, and no one has said, you are out of 
line. No one has said, don't do anything. I mean, what I 
appreciate is this administration does not tell me what to say 
or what not to say. They allow me to say what I think and they 
support me through that.
    Mr. Connolly. Thank you.
    Chairman Royce. Let's go to Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman, and thank you, 
Ambassador, for restoring American leadership to the United 
Nations. And thank you for participating in the National 
Security Forum, as well as Senator Rubio and myself.
    I chair the Homeland Security Committee and over the 
previous administration over the last 6 years I saw the 
Caliphate expand and expand, and nothing was done to stop it. 
External operations have been launched out of that region and 
now it has become the epicenter for terrorism and the epicenter 
of probably the greatest humanitarian crisis that we have seen 
with millions of refugees in Turkey and in Jordan, as you know, 
and throughout Europe, which poses a risk as well.
    I am very proud of this administration's efforts now to 
crack down on this terrorist organization. But in the meantime, 
as we did nothing Russia went into Syria to get the ports on 
the Mediterranean. Iran is now in the region.
    So my question is very simple. What is your strategy to 
deal with this very, very complicated situation?
    Ambassador Haley. I think that it is changing by the day. I 
think we literally are watching the Syria situation change by 
the day. I will tell you that I visited Jordan and Turkey 
recently just to make sure--as well as Israel--on that Syrian 
border to see what the migration was doing, to see exactly how 
we were dealing with Syrian refugees and how the host countries 
were dealing with it.
    Jordan and Turkey have been phenomenal to their refugees. 
They see it as their duty. What we saw in Jordan is they are 
giving education. They are giving health care. They are giving 
a stipend. They do it on a bank card, and whether that refugee 
goes to a bank or to a grocery store, it is by eye scan. They 
have zero percent fraud. And so it is impressive to see what is 
happening there.
    Turkey is doing very much the same things but they actually 
have their Turkish doctors training the Syrian doctors in 3 
months so that the Syrian doctors can take care of Syrians.
    If you look, Jordan has taken in 1 million refugees. Turkey 
has taken in 3 million refugees. But they are feeling the 
pressure. They are double-shifting schools. Jordanian and 
Turkish children are going in the mornings, Syrians are going 
in the afternoons.
    Competition for jobs is starting to be there. But the 
Syrians are very grateful. They are very entrepreneurial. If 
you look in the camps they are creating their own economy with 
battery repair and alterations and all these types of 
businesses. So we need to support the host countries because 
they are doing a phenomenal----
    Mr. McCaul. And if I could just applaud your actions 
against Assad and his use of chemical weapons to kill children 
in a hospital.
    But as long as he remains in power, propped up by Russia 
and Iran, this civil war will continue to go on. That is the 
root cause of this whole problem. The refugee humanitarian 
crisis won't end until I think that problem is dealt with.
    Ambassador Haley. Well, and I think that from the political 
situation in Syria, what you are looking at is we are certainly 
making a lot of strides of getting ISIS out. I think it has 
been aggressive.
    I think it is going faster than we expected. From that 
standpoint, it is good. The Iranian influence in Syria is a 
problem. It is going to continue to be a problem because they 
are completely backing Assad.
    Russia is completely backing Iran. And so we are trying to 
make that separation because that needs to happen. One of the 
best things we did was after the chemical weapons program, when 
the President made that decision to go in and strike, it sent 
shock waves throughout the international community as well as 
in Syria to let them know we weren't going to stand for it. I 
think the President has held true to any signs of chemical 
weapon usage we are going to get involved.
    Now we are going to have to start looking as a country at 
what is the U.S. role going to be post-ISIS, when ISIS gets 
out, because a healthy Syria is not with Assad. You can't have 
Assad in power with a healthy Syria.
    And so I think we have to look at it from all levels and 
realize that a post-ISIS Syria doesn't mean all goes back to 
where it should be happy and good again. We have to make sure 
it doesn't stay vulnerable for other terrorist groups to come 
in.
    Mr. McCaul. Well, it is good to finally see some leadership 
in that part of the world and I will say that the Iranians are 
wedded to Assad. I am not sure the Russians quite are.
    Ambassador Haley. I think they are starting to see him as a 
liability.
    Mr. McCaul. And I think there is an opportunity possibly--
--
    Ambassador Haley. Yes.
    Mr. McCaul [continuing]. To work with them to have a 
graceful exile of Mr. Assad.
    Ambassador Haley. I agree with you.
    Mr. McCaul. I yield back, Mr. Chairman.
    Ambassador Haley. Thank you.
    Chairman Royce. We go now to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Ambassador Haley. Good morning.
    Mr. Deutch. Welcome, Ambassador Haley. Before----
    Ambassador Haley. Thank you.
    Mr. Deutch [continuing]. Asking questions, I just wanted to 
make one request, if I may. I represent Bob Levinson. He has 
been missing in Iran for 10 years. I would implore you at every 
opportunity you might have to see anyone from the Iranian 
delegation or when you speak with our allies who speak with the 
Iranians, please press for his return to his family.
    I want to--again, thanks, for being here and I am grateful 
for what you have said this morning and your presence at the 
U.N. these past 5 months and your willingness to speak out 
forcefully there and here in support of human rights is really 
welcome.
    At times, your advocacy for a human rights agenda seems to 
be at odds with some other members of the administration who 
don't seem to place the same value on human rights in the 
center of our policy agenda where it belongs, as you do, and 
the lack of coordinated messaging has at times left our friends 
and allies around the world confused and questioning and I 
imagine it has, at times, made your job challenging.
    But I commend you for what you do. I commend you for 
convening the first special session on human rights during the 
month that the U.S. held the presidency of the Security 
Council. It is important to do what you are doing. We are able 
to shine a light on human rights abuses. You are able to push 
for peacekeeping reform.
    You are able to urge for greater efficiency in refugee 
assistance because the U.S. is fully engaged at the U.N. And 
while the U.N. is far from perfect and we can all acknowledge 
that, if we retreat from it instead of working from within it 
to improve it, we will cede leadership to those whose goals and 
interests run counter to our own.
    American leadership is what helps to prevent global health 
crises and address food insecurity. It is what helps address 
instability in dangerous places. Diplomacy and development 
helps to prevent wars.
    So I hope that you will continue to speak out and this 
Congress will fully fund our commitment to these efforts.
    I agree with the concerns that you have laid out. I have 
spoken out forcefully about the pervasive anti-Israel obsession 
at the Human Rights Council. No country has been subject to 
more resolutions than Israel.
    But it is also true that since the U.S. reengaged on the 
council the number of Israel-specific resolutions has decreased 
and it is, as you pointed out this morning, it is hard to take 
the Human Rights Council seriously when some of the world's 
worst human rights abusers sit on the council in an effort to 
shield themselves from criticism.
    But, again, if we walk away from the council and give those 
bad actors free rein to continue to make a mockery out of human 
rights, we will all be the worse off for it and I hope that we 
will stick with it so that you can continue to make the case.
    You raise two possible reforms--membership standards and 
the removal of Agenda Item 7. On membership standards, I wonder 
if you could tell us how the team in Geneva is working to 
advance that. Specifically, are you laying out criteria for 
membership and how can we help you with that. And then 
secondly, on Agenda Item 7, it is my understanding that 
procedurally the next time that the agenda can be changed is 
2021.
    But earlier you mentioned that in your discussions with 
other countries you singled out Egypt and Saudi Arabia and 
Pakistan as the only ones who will not acknowledge the 
absurdity of having a dedicated agenda item for a democratic 
ally of ours on the Human Rights Council agenda while 
completely ignoring the human rights abuses in Iran and North 
Korea and Venezuela.
    So my question to you on that is given that those countries 
are the ones who object and given that this administration at 
this moment has a lot on the table with those countries, have 
you spoken to the administration about using all of its 
resources with the Saudis and the Egyptians and the Pakistanis 
to help them understand why it is in their best interest to 
partner with us to make the Human Rights Council a place that 
actually can be respected, and if so what steps have they 
taken?
    Ambassador Haley. Okay. Thank you.
    In reference to Bob Levinson, we will never let that go. I 
mean, that is something that I think sits on the hearts of many 
Americans wanting to see him and his family reunited. And so 
yes, we are going to continue to keep up the pressure on that.
    In terms of the budget, I want to be a conduit in any way I 
can. As you make your decisions on where the budget needs to 
go, I will let you know what I found to be valuable, what I 
think is important, and we will continue to be a leader at the 
U.N. I strongly believe that. And so we just need to decide 
what those areas are and we will continue to do that.
    In reference to the Human Rights Council, yes, we talked 
about competitive elections because typically what happens is 
by the time the region decides who that person is going to be, 
they are already on the ballot and there is no contest.
    So we have to look at the contests before. It is going to 
require more engagement but it is going to have to be 
willingness by others. We know it can be done because Russia 
lost last time and they lost because of their participation in 
Ukraine. So we have to learn from that and say, okay, how do we 
continue to bring those things up. So we are working not only 
with the Human Rights Council itself but we are also trying to 
engage in the General Assembly and maybe seriously look at 
using UNGA in September to bring that more to light and see 
what we can do there. I know Agenda 7 doesn't come up until 
2021. We are not going to wait that long.
    So our goal is to go ahead and start doing this now because 
there are ways we could do it now. I have talked with the 
Secretary-General about it. I have talked with the Human Rights 
Council about it.
    I have talked to members of the administration. This will 
be multi-level and we are trying to do that. Secretary 
Tillerson and I have discussed what pressure we need to put on 
what countries and so yes, we are going to take that from all 
angles that we can.
    Mr. Deutch. Thank you, Madam.
    Chairman Royce. Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman, and as I sat here this 
morning, I want to remind the committee that President Obama's 
State Department sent $350,000 in taxpayer-funded grants to an 
organization called One Voice in Israel to influence the 
election or the ouster of Prime Minister Netanyahu in 2015.
    Ambassador Haley, you are doing a great job. Thanks for 
being here today. You know, on my side of the aisle I am one 
that believes that foreign aid is a powerful tool in U.S. 
foreign policy and I get a little more than chagrin when 
recipients of large amounts of U.S. foreign aid don't vote with 
the United States at least half the time in the U.N.
    If you really look at the voting records of countries like 
Haiti, which was a huge recipient of U.S. foreign aid, and back 
when I did the research in, I think, 2012 they were voting with 
us, like, 18 percent of the time. If you really go through the 
list of countries that receive billions of taxpayer dollars, 
this is money from hardworking American taxpayers that we are 
giving away to foreign countries that can't even vote with us, 
their benefactor, at least half the time in the U.N.
    I know you are aware of that. Some have speculated that our 
efforts to whip the votes of the U.N. to try to get our 
beneficiaries to vote with us aren't as good as our 
adversaries.
    Do you support the position that we ought to have 
beneficiaries of taxpayer dollars vote with us more at the 
U.N.?
    Ambassador Haley. So I will tell you that the one point I 
continue to make at the U.N. is the U.S. will not be taken for 
granted and you cannot take the fact that this money that has 
always been rolling to you is going to continue to roll to you.
    So yes, we have put them on notice when it comes to that. I 
do think we very much have a partnership that we can have with 
Congress because we need to make sure they understand it is not 
just give me the money and then turn around and go against 
things that really matter to us on the other side, and 
coordinating that is something we very much want to start doing 
at the U.N. in terms of getting to see if we can push votes 
that way.
    And I am happy to work with you on that but yes, I think it 
is very important that we always want to do what is in the best 
interests to help people.
    We have always had, you know, a moral--we have always kind 
of been the moral compass to the world. But we are not going to 
be rolled over any more at the U.N. We are not going to allow 
that to happen.
    Every dollar matters and we don't have to give it, and if 
we do, other countries just need to respect that and understand 
that and not vote against us on things that they know in turn 
will help them. So yes, I absolutely think you are right on 
that.
    Mr. Duncan. Well, thank you for that. I have had the same 
conversation with countries that are part of the OAS with 
regard to Venezuela that don't seem like they can vote with the 
United States and with democracy-loving countries as the OAS 
does different things--not really sanctions at this point 
toward Venezuela--I think it is a conversation to have.
    Let me ask you about the Colombia FARC negotiations and the 
peace deal that was implemented there. As chairman of the 
Western Hemisphere Subcommittee, the next thing to look at is 
going to be the increase in coca production and cocaine 
trafficking out of Colombia. I believe Colombia took their eye 
off the ball with regard to the cartel and even the FARC trying 
to grow a lot of coca and increase cocaine production to put 
some money in the bank before they became a legitimate 
political power under that peace agreement.
    Is there anything at the U.N., any conversations being had 
about cocaine trafficking increasing in Colombia and Peru and 
what we can do as a community to stop drug trafficking?
    Ambassador Haley. Okay. First of all, to kind of go back to 
your last comment, I would remind you that we give quite a bit 
of money to the Palestinian Authority directly, bilaterally, 
and any leverage you can do on getting them to stop those 
martyr payments is going to be very important. If you can make 
that correlation and use that as a conversation point that 
would be very helpful to me.
    In terms of the FARC, we saw that the weapons turned over 
yesterday--we had a good announcement there in terms of things 
are starting to move. The Security Council does have a 1-year 
mandate in Colombia to sit there and look at all of those 
things and in that it is, obviously, to bring up the health and 
the effectiveness of how to make Colombia strong.
    So yes, those will be one of the things we are doing. You 
also know we have our South Carolina National Guard that is 
partnered with Colombia as well and so I think you are right to 
see past the FARC and see where it is going from there, to look 
at the future of Colombia. And so we will be happy to partner 
with you on that as well.
    Mr. Duncan. Okay. Yes, I visited with the National Guard 
folks in Colombia and am very proud of what they are doing with 
Colombia and that partnership. I know you were part of that, as 
well as General Livingston.
    So thank you for that. Good luck, and thanks for being 
here. God bless you.
    Ambassador Haley. Thank you.
    Chairman Royce. Karen Bass of California.
    Ms. Bass. Thank you. Thank you, Mr. Chair, and thank you, 
Madam Ambassador. I want to congratulate your leadership in 
your short tenure and definitely register that I appreciated 
your bringing the Security Council to Washington, DC, and 
including Members of Congress.
    I would love to see that happen again and I also look 
forward to continuing to work with you on South Sudan and 
famine. So I wanted to ask you questions primarily related to 
that.
    Given that the U.N. has declared that famine in the four 
countries as the world's worst humanitarian crisis since 1945, 
what concerns me the most is that it is the crisis that no one 
seems to know anything about. And I wanted to know specifically 
what the U.N. is doing to bring the crisis to the attention of 
the world. And, you know, the last time there was a crisis like 
this in 2011 in Somalia, 200,000 people had to die before the 
world really took notice.
    The other thing is is that our contribution of $990 million 
we put that in the continuing resolution. I do have concerns, 
as I think Mr. Chairman Smith mentioned, that that money gets 
out of the door as quick as possible and that money not be 
rolled over into fiscal year '18 because that blows the entire 
point. The point was to respond to the crisis.
    And then, of course, I am concerned about the budget 
proposed by the administration that would actually cut food 
aid. So when I look at this handout is from USAID and it talks 
about the funding gap and, you know, we have made substantial 
contributions but other donors still have quite a lot to 
contribute.
    And so I wanted to know your thoughts on how we might be 
helpful to you in terms of getting other donors to step up to 
the plate, including some nontraditional donors such as China 
and the Middle East.
    Ambassador Haley. Thank you, and I really do believe these 
four famine areas are extremely important and if we really want 
peace and stability we need to look at that.
    When it comes to the food aid, very important that we 
continue to work with USAID but also with the World Food 
Programme.
    Ms. Bass. Yes.
    Ambassador Haley. You know, we now have--we made sure that 
we have an American leading that who happens to be a former 
South Carolina governor----
    Ms. Bass. Yes.
    Ambassador Haley [continuing]. David Beasley, and he has 
hit the ground running and is really starting to raise quite a 
bit of money for the World Food Programme as well.
    But we need to continue to put pressure on other countries 
because the Secretary-General has raised the famine issue as 
something to be concerned about. We don't want people to get 
overly excited that South Sudan came off that list----
    Ms. Bass. Right.
    Ambassador Haley [continuing]. Because the food insecurity 
is still very strong, and then there are the political issues. 
You have still got access issues of trying to get the food in. 
You have still got issues with South Sudan when it comes to 
that. When it comes to Yemen, we are watching the port very 
carefully, Hodeidah. We have to make sure that there is no 
problem with that port or we will really be in a bad situation. 
And then when it comes to Nigeria and Somalia, just dealing 
with al-Shabaab and Boko Haram are going to continue to being 
issues as deterrences to getting the food in.
    So I think what is most important is that we continue to 
talk about it. Thank you, thank you, thank you for the billions 
dollars because that was hugely important when it came to the 
famine relief and I think we need to continue to do that.
    But it is also the reason I am going there in the fall so I 
can see it in terms of what else can the U.N. be doing, what 
else can the U.S. be doing in terms of helping with that.
    Ms. Bass. Well, when Chairman Smith and I did go, even 
though famine has been rolled back in South Sudan, we did find 
that people are only getting enough food for \1/2\ month. So 
maybe it is that they are not dropping dead as quick but they 
still are very much in a crisis.
    Then you mentioned Mr. Beasley heading up the World Food 
Programme, yet our budget calls for cuts to that. And so I am 
hoping that in your position you can push back and encourage 
that those cuts not happen because we don't have any reason in 
the world to think that we are not going to be facing famine 
next year until we address the root causes of the famine, which 
is the conflict.
    And then just on a final note at the end of my time, you 
know, I know that there is a lot of interest in getting 
countries that disagree with us to vote with us, and I don't 
know where you measure that. And I would hate to think that the 
U.S. would move in a position of saying we are going to 
withhold aid unless you vote, what, 10 percent? Fifteen 
percent? A hundred percent? How do you measure--you know, how 
do you measure that? I think that would be a very bad precedent 
and direction to us to go forward.
    So I look forward to continuing to work with you and maybe 
we can speak before you head off to South Sudan the next time.
    Ambassador Haley. Yes. No hard percentages on what funding 
should happen. I think that we just look at each individual one 
and where we see a bad actor that is not relating well--with 
the Palestinians, to get them to stop those martyr payments is 
so important and I think it creates a conversation for you all 
to have to help encourage that.
    But yes, we are not looking at hard cuts in terms of that 
and I continue to tell the President what is valuable and what 
is not. And so things like UNICEF and World Food Programme and 
the famine issues are things that I have talked with him about 
and will continue to talk to him about and I think that's why 
we can be the conduit between the President and Congress on 
where the final budget ends up.
    Thank you.
    Mr. Duncan. Okay. It is great to be in the chair with 
Governor--with Ambassador Haley here.
    The Chair will now go to Mr. Perry for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Ambassador Haley. Good morning.
    Mr. Perry. Ambassador, great to see you. On behalf of all 
the Americans that feel as I do that we are tired of seeing 
America be the whipping post, are very proud of your service in 
the service of our President of the United States, and let me 
just state that.
    And then with your indulgence I just want to address what I 
think is political theater here. So while it is interesting, I, 
and the American people, may marvel at the Left's newfound 
concern regarding Russian/Communist/Socialist nations' 
continued efforts to diminish America.
    I just want to remind everybody about the FDR 
administration--Alger Hiss, John Service, Harry Hopkins, who 
served at the very highest levels of government--and what seems 
to be the Left's continued being enamored with Russia, Cuba, 
Che Guevara, et cetera. From FDR to the previous President's 
statements to then-President Medvedev. And I just got a news 
flash for everybody--Russia, Communists, the Socialists have 
always meddled in America, have always targeted us and they are 
going to continue to do that. So welcome to the fight.
    With that, Ambassador, I have a question which I am going 
to put up front just for you to think about and then I am going 
to buttress it a little bit here.
    I am working on some legislation to prevent the U.S. 
taxpayers from funding UNRWA, right--the United Nations Relief 
and Works Agency--and I want to get your thoughts on that, in a 
general way, as it currently exists.
    And the context is this--it is 67 years old, right, and I 
looked at their mission statement--to establish a lasting, 
peaceful, and to the Israeli-Palestinian conflict, direct 
bilateral negotiations. That's number one. Number two--counter 
Palestinian terrorist groups. Number three--establish the norms 
of democracy, accountability, and good governance.
    And when I look at, in that context, what we are dealing 
with now--and I will just pick out a couple things--UNRWA's 
expansive definition of refugee where President Abbas has 
acknowledged that that definition would mean the end of 
Israel--that is number one.
    Number two--the Hamas affiliation with UNRWA and the fact--
I will just give you a metric here--since 2006, Hamas-
affiliated candidates have held 11 seats on the UNRWA teachers 
union executive boards and the UNRWA schools use textbooks and 
materials that delegitimize Israel, denigrate Jews, and 
venerate martyrdom. Fully 78.6 percent of youths in Gaza and 
46.4 percent of youths in the West Bank support the Knife 
Intifada. Furthermore, 76 percent of the terrorists taking part 
in the Knife Intifada were under the age of 30.
    And finally, I don't understand--and I am not sure why 
anybody can explain to me how they report directly to the 
General Assembly rather than the United Nations High 
Commissioner on Refugees.
    So it has been since 1950 that we have been paying for--I 
think we are currently up to about 31 percent of their budget--
for a temporary mandate. The United States is out of money. We 
are out of cash to throw around, right. We are $20 trillion 
<greek-l>dollars  deg.in debt, $200 trillion in unfunded 
liabilities. It seems like it has been long enough to fund 
something that can't even meet its mission. As a matter of 
fact, I think it would be correct to say that it flies in the 
face and runs completely counter to every single one of the 
policy goals it was set up for, yet the American hardworking 
taxpayer is paying for this thing.
    What are your thoughts, ma'am?
    Ambassador Haley. So I had thought a lot of what you said 
about UNRWA but I wanted to see it for myself. And so when I 
went to Israel, I went to the Palestinian areas and looked at 
the UNRWA camp. We talked about the schools. We talked about 
the textbooks. We talked about participation of Hamas and where 
things were going with that, and this is what I will tell you.
    Yes, UNRWA is not perfect and yes, when it comes to any 
sort of relationship with Hamas that needs to come out. They 
claim they are cleaning up the textbooks but I think more work 
needs to be done on that front.
    The only reason why I would say don't eliminate UNRWA is 
because there is so much resentment between the Palestinians 
behind that fence and Israel that an uneducated Palestinian 
versus an educated Palestinian are unhealthy----
    Mr. Perry. Okay. I am going to push back. Just a moment, 
Ms. Ambassador.
    Ambassador Haley. No, and I want you to--I saw this.
    Mr. Perry. So let me ask you this. This seems like a fair 
question. How much longer should folks like me wait on behalf 
of the American taxpayers until they clean up their act? What--
I mean, it has been 67 years. How much longer should we wait?
    Ambassador Haley. And I feel your frustration and I think 
that what we need to figure out is what is the replacement of 
UNRWA or how do we go back. First, we have to limit the number 
of refugees.
    It is out of hand the number of people that UNRWA covers 
because they are not all refugees. But the schooling and the 
health care for those groups in there, I mean, there is no 
other place for them to get it. And so there is a--there is a 
population there that does need to have that. All the points 
you raised are right and all the--those are all things that we 
need to fix. But I do----
    Mr. Perry. My time has expired, Ms. Ambassador. But at a 
minimum, I think we ought to look at what their mission is and 
we can't meet this mission then we ought to reestablish a new 
one, and I yield.
    Mr. Duncan. Gentleman's time has expired.
    Ambassador Haley. I understand.
    Mr. Duncan. I will now go down to the gentleman from 
Massachusetts, Mr. Keating, for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman. Madam Ambassador----
    Ambassador Haley. Yes, good morning.
    Mr. Keating [continuing]. Thank you for being here and 
thank you for your service.
    The Office of U.N. Women I think is a very important 
office. It empowers and trains women's groups so that they can 
contribute to conflict resolution and peace building. It also 
deals with an issue that this committee has been very involved 
in in terms of having women be active as participants in 
counterterrorism implementation and dealing with that 
implementation task force, making sure that gender is addressed 
in counterterrorism strategies. It is also involved, among many 
other things in fighting violence against women, engaging women 
and protecting women themselves and providing resources to 
women who are victims of violence.
    You said the President's budget is there to make a point. 
What point did the President make by zero funding this office?
    Ambassador Haley. Well, you know, my job is to go through 
and see what the office does, whether it is valuable, what the 
U.S. role should be and then report back, and so that is what I 
plan on doing.
    Mr. Keating. Do you think it is valuable--that office?
    Ambassador Haley. We will find out. I mean, I think I need 
to do more work. But yes, overall, anything that empowers 
women, creates a healthy situation for women, works for girls, 
does any of those things, yes, it sounds good on the surface.
    But we are going through all of those, whether it is, 
UNESCO or whether it is any of these programs we are going to 
continue to look at----
    Mr. Keating. What is the time frame for going through this 
now and can you enlighten us in terms of a time frame where 
this office will know it is going to continue to exist and go 
forward?
    Ambassador Haley. I mean, I think you can expect in short 
term. I mean, we are going through all of these. It has only 
been 5 months so we are trying to cover as much as we can at 
the U.N. I am happy to report back and let you know what we 
find out and whether it is valuable and it is something I would 
let the President know as well.
    Mr. Keating. Thank you. This committee has been very 
involved in trying to empower women and deal in that area 
itself so it is something that I would appreciate in short 
term----
    Ambassador Haley. We will get back to you on that, yes.
    Mr. Keating [continuing]. Getting back from you.
    Secondly, you know, we talked about staffing in the State 
Department in particular and all those areas that haven't been 
staffed.
    I wonder, in your working with State, has that made it 
difficult to communicate back and forth for you and your 
function?
    And just to give a sense of things, do you have a lot of 
opportunity to deal directly with Secretary Tillerson and 
coordinate and have conversations? How frequently do you have 
the opportunity to converse or stay in touch?
    Ambassador Haley. So I--because I am a Cabinet member, I 
primarily work with General McMaster at the NSC and so we work 
with his staff quite a bit. With the hirings at the State 
Department, you know, we have nothing to do with that so I am 
focused on the hirings at USUN.
    We have, up until now, saved $500,000 compared to this time 
last year just by cutting overtime and trips and, you know, 
certain things. But our experts there are fantastic.
    Mr. Keating. But it hasn't inhibited you in terms of your 
communication with the Secretary back and forth, that lack of 
staffing?
    Ambassador Haley. I work more with the NSC than I do with 
the State Department.
    Mr. Keating. I see. Do you have occasion to work with the 
President's senior advisor because he is so involved right now 
in Middle East issues, Mr. Kushner? Have you talked and engaged 
with him? How frequently do you talk to Mr. Kushner about these 
international problems?
    Ambassador Haley. It depends on what issues he is working 
on. But I talked to him certainly before I went to Israel to 
look at the U.N. programs.
    I always download them on what the trips are. They let me 
know if there is any issues. But with the U.N., I primarily 
work with Secretary Tillerson or General McMaster. But if Jared 
has a certain question or a certain issue that he wants to 
discuss then he will call me.
    Mr. Keating. What is your view of his role?
    Ambassador Haley. I think that when it comes to the 
Israeli-Palestinian peace process, I think he is being very 
effective in terms of--when I was there, there is hope. There 
is--I felt it.
    Both sides realize they have got to come to the table. Both 
sides realize something needs to happen. I think he's handled 
it respectfully and I think he's handled it aggressively. So 
that is really the one thing I have worked with him on and I 
think that on any other issues that he works on I am not as 
sure because we don't have as much. I know that he was very 
involved in the trip that the President made, you know, to the 
area and that was extremely effective because I was in the area 
and it was very well received.
    Mr. Keating. Well, thank you.
    I just had one other quick question because my time is 
running out.
    Ambassador Haley. Yes.
    Mr. Keating. With Qatar and the blockade, what is your 
position on that? There seems to be conflicting positions 
within the administration.
    Ambassador Haley. I see it as an opportunity. We should 
take it as the opportunity that it is. It is a good chance to 
tell Qatar quit funding Hamas, quit doing these things in Gaza 
that they are doing. Let them know that they have been funding 
groups that are going toward that terrorist activity we don't 
want to see but at the same time go back to Saudi Arabia and 
say, look, you can talk to them but at the same time you have 
to cut this out--you have to stop doing this. It is an 
opportunity to kind of hit on both of them, I think.
    Mr. Keating. Yes. Well, thank you for coming here and I 
hope we have the opportunity to have you back here again. I 
appreciate the service.
    Ambassador Haley. Thank you very much.
    Mr. Keating. I yield back.
    Chairman Royce. Ron DeSantis of Florida.
    Mr. DeSantis. Welcome, Ambassador.
    Ambassador Haley. Thank you.
    Mr. DeSantis. Before you assumed your position, the U.S. 
passed Resolution 2334--really disastrous resolution--a frontal 
attack on Israel. What is your understanding about the role 
that your predecessor played in facilitating that?
    Ambassador Haley. Well, I made sure to let every member of 
the Security Council know what a kick in the gut 2334 was to 
the people of the United States.
    Mr. DeSantis. And was that view a change from what they had 
been told previously with the previous administration?
    Ambassador Haley. There was some who were apologetic. There 
were some that were resentful. There were some that acted 
indifferent. But yes, they did let me know that this was U.S.-
led and U.S. pushed and that only made it worse.
    Mr. DeSantis. No doubt. So the question is do we have an 
opportunity to repeal that or reverse that and if not why 
should the American taxpayer fund an organization that, of 
their 24 resolutions, 20 of them were dealing with this one 
tiny--the only Jewish state, the state of Israel?
    Ambassador Haley. I can tell you, it has been nothing short 
of abusive what has happened to Israel and the only thing I can 
compare it to is like the kid bullied in the playground. They 
did it to make themselves feel better. They did it because it 
was in habit. They did it because they could. I think that what 
I will tell you is we put them on notice the very second I went 
to my first hearing because I could not believe how abusive it 
was.
    Mr. DeSantis. So you think the American taxpayer has a 
right to expect changes at the U.N. in order to continue to 
send money?
    Ambassador Haley. Absolutely, and they all know not to talk 
about 2334. Very hard to repeal now that it is done. But what 
we will do is call them out any time this happens and we have 
seen a decrease in that rhetoric and in this last Israel-
bashing session, which they do every month and have for the 
last 10 years, it was the first time that the majority of the 
members just pushed the peace process instead of bashing 
Israel. So there is a change but there is a long way to go.
    Mr. DeSantis. And I appreciate your leadership. We also can 
take other actions. The President, when he campaigned, promised 
to move our Embassy from Tel Aviv to Jerusalem. I have gone 
over, looked at sites. It can be done. Do you support doing 
that and are we going to eventually do that?
    Ambassador Haley. I have always supported the Embassy move 
and I believe the President supports it as well. It is not 
about if it happens. It is about when.
    Mr. DeSantis. But I hope it is soon because I think it 
would be great if we could do it now. There is an issue of we 
have Americans that were born in Jerusalem. When they go to get 
passports the State Department does not allow them to write 
Israel--Jerusalem, Israel--because they claim that that's 
disputed and it is not the capital of Israel.
    Can we get relief for some of those? I mean, would you 
favor that, allowing Americans born in Jerusalem to just have 
Jerusalem, Israel if they so choose on their passports?
    Ambassador Haley. I have not--I am not aware of that. But I 
am happy to talk to the State Department about that----
    Mr. DeSantis. That would be great.
    Ambassador Haley [continuing]. To see what it would take.
    Mr. DeSantis. The Muslim Brotherhood--is that part of the 
solution in the Middle East or part of the problem in the 
Middle East, in your view, and if it is the latter, should the 
U.S. designate them as a foreign terrorist organization?
    Ambassador Haley. So I think that that is highly debated. 
That is not something that has been discussed within the 
administration. I am not a fan of the Muslim Brotherhood and so 
I do think that they are more problematic in the area than 
helpful.
    Mr. DeSantis. Because I think that we, you know, hit the 
terrorists, kind of Whac-A-Mole, which is good--you got to take 
them out. But there is a foundational ideological view that is 
motivating that and there will be other people who will fill 
that vacuum.
    The Brotherhood, I think, represents the foundation and if 
we can deal with that then I think we are dealing with the 
problem of radical Islamic terrorists much more holistically 
and likely to be more effective.
    Ambassador Haley. I completely agree with you.
    Mr. DeSantis. Turkey--are they a valuable part of NATO at 
this point? There was a disastrous display here in Washington 
where Erdogan's goons were beating American protesters.
    You have seen a country that used to be a bridge to the 
West has turned in a much more Islamist direction. Our 
relationship with Turkey--is it strained? What is the viability 
of them as a NATO ally if they seem to be going in a direction 
that is different from the Western values that the rest of the 
NATO allies hold?
    Ambassador Haley. So a few things with Turkey. It is 
complicated. But when I was in Turkey, I did meet with the 
Foreign Minister. It was mainly focused on how to get access 
into Syria because they were stopping some of the NGOs from 
getting in there.
    But we talked about multiple other things--prisoner 
releases and some other things along those lines. Turkey is a 
fantastic host country to the Syrians.
    They are doing everything right by the Syrians. Their 
government is starting to turn for the worst. You can start to 
see more of a dictatorship that is starting to happen--those 
types of things.
    I work very closely with the Turkish Ambassador because 
with everything going on we need to. They are not happy with 
what we have done with the YPG but they get it. They don't like 
it but they get it.
    And so I think Turkey is one of those that has its good 
sides. It has its bad sides. It has been made clear to them at 
the highest level that you can't come to our country and act 
like that--at the highest level.
    They know that that's not something we will tolerate. They 
know that it was very much frowned upon. They have given 
excuses as to why it happened and they know we are not taking 
any of their excuses.
    Mr. DeSantis. Thank you.
    Chairman Royce. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    Obviously, for the Indian-American diaspora this is 
probably a first and, obviously, proud for the community. You 
know, Madam Ambassador, when we think about the U.N. Security 
Council it has been a consistent policy from the past 
administration, also I think with the current administration, 
to do necessary reforms and modernize the U.N. Security 
Council. And can we get--obviously, the politics at the U.N. 
aren't going to be easy but in a statement released earlier 
this week the President reaffirmed his commitment to add India 
as a permanent member of the U.N. Security Council along with, 
what I would argue, we should include all of the G4 nations. Is 
that something that we can get your commitment to continue to 
work on?
    Ambassador Haley. Well, I have told all members of the U.N. 
that we are in support of Security Council reform as long as 
they don't take our veto away.
    Mr. Bera. Right.
    Ambassador Haley. You know, that has been very important. 
So yes, I know that there are multiple different plans out 
there and things that are going on. We are going to continue to 
engage and continue to talk about that.
    Mr. Bera. Great. Thank you.
    In your earlier comments you noted that the budget was 
making a point as opposed to being reality. My colleague, Mr. 
Connolly, talked a little bit about what UNICEF does and you 
yourself, in answering one of this questions, talked about how 
you've seen firsthand how what they do is incredibly valuable.
    Can we get your commitment as you're working behind the 
scenes with the administration, with the President, we will do 
our part to restore full funding or as much funding as 
possible? Can we get your commitment that that is a priority?
    Ambassador Haley. I think that we need to remind these 
organizations that they too need to smartly spend and they need 
to look at their budgets as well as we are all kind of looking 
at how we can be smarter about what we do.
    But yes, I absolutely will support UNICEF. It is something 
that I am happy to continue to talk to you about--that one and 
other organizations that we found helpful. But I am also 
talking with the administration about it.
    Mr. Bera. Great. Thank you.
    Ambassador Haley. Thank you.
    Mr. Bera. Another organization that was zeroed out was the 
U.N. Family Planning Agency. Their mission is to prioritize the 
health and education and needs of women and girls around the 
world. If you look at their core work, it is providing access 
to contraception. It is providing safe childbirth. It is 
addressing and responding to gender-based violence. It is 
advocacy against abusive practices like child marriage and 
female genital mutilation.
    You would agree that those are worthy causes to fight?
    Ambassador Haley. There are many causes that are important 
that affect women and children that we want to make sure that 
we keep that at the forefront.
    The problem with the UNFPA is they did have ties to China 
that does forced sterilization. But I can tell you every ounce 
of that money is going to all the things that you just talked 
about but it will be done through the general health programs 
through USAID.
    Mr. Bera. Well, so I have some concern because that has 
been brought up multiple times. Under the last Republican 
President, George W. Bush, the State Department did do an 
examination to see if that was occurring and they did not find 
that evidence that UNFPA was engaging in----
    Mr. Smith. Would the gentleman yield at that point?
    Mr. Bera. Well, I have only got a limited time so--that 
they were engaging in coercive abortion or involuntary 
sterilization. If that is in fact occurring, great. Let us 
remove funding from those types of programs or lets hold UNFPA 
accountable.
    But UNFPA is doing tremendous work around the world 
protecting maternal-child health, and I say that as a doctor. 
We shouldn't just throw everything out if there is a single 
program--I understand there is the Kamp-Kasten Amendment and 
instead of just withdrawing all funding--a lot of women are 
going to suffer. There will be unnecessary deaths and so forth.
    So can I get your assurances that you will look at these 
programs as opposed to just zeroing out and eliminating these 
programs? If there is evidence of coercion, if there is 
evidence of involuntary sterilization, great. Address that. But 
let us not pull all of our funding.
    Ambassador Haley. So on a lot of programs, yes, I am happy 
to work with you on all of those. That is a decision that has 
already been made by the administration. So I don't anticipate 
a change in that. But I am happy to at least let you know the 
information that they have on----
    Mr. Bera. But the administration already made a decision to 
zero out funding for UNICEF. That's the starting point, as you 
said. It is not necessarily an ending point. We can continue to 
put some of this push back?
    Ambassador Haley. Well, and I think that that was just the 
directive that we got, you know, that that was going to happen. 
We haven't had that on UNICEF and some other things.
    But what I will tell you is very important is that global 
health of women and children as we go forward and so we have 
made sure that that same money is going to global health 
programs to do the same things within the USAID. But I am happy 
to get you any information I have as to what the 
administration's stance is on that.
    Mr. Bera. Great. Thank you.
    Chairman Royce. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Ms. Ambassador, it is great to see you here.
    Ambassador Haley. Thank you.
    Mr. Yoho. It is refreshing to see you sitting there 
compared to where I--we saw last time. But I love your attitude 
because you're not serving a political party.
    You are not serving so much the administration as you are 
representing America the way it needs to be represented and its 
strong leadership and I do thank you for that.
    Some members are still in denial that America is facing 
tough economic challenges. Austerity measures are coming and so 
I am, for one, happy to see some of the cuts the President has 
offered because that leads to reform and those reforms are what 
we need to make.
    Secretary Tillerson in Seoul declared the era of strategic 
patience toward North Korea has ended. In veterinary medicine 
we have a comparable phrase and it's called benign neglect, and 
that is hoping an illness will get better on its own.
    However, it doesn't work for a terminal disease and that is 
what the situation in North Korea is and we need to deal with 
it. So my directions are going to be toward China and China's 
help with correcting the problems, and are they a strategic 
partner or a strategic opponent? Because I think their actions 
speak louder than their words.
    They say they want to help us and what I see is double 
speak. If you look at what China has said they were going to 
help us with with North Korea, they were going to put more 
pressure on them. But yet, when they said they are not taking 
in any more coal, if you look at their iron ore imports from 
North Korea to China it is up 270 percent. Their trade for 
North Korea in the first quarter of this year is up 37.4 
percent.
    And so when you look at what China is doing, they are 
putting pressure and boxing Taiwan in. They have thrown them 
out of the World Health Assembly, and Taiwan was such a 
valuable partner in that.
    They are the ones that came up with the cures for the SARS 
epidemic, and they threw them out of that. They put pressure on 
Panama to take Taiwan out of that. They went against South 
Korea when we put the THAAD system in and that was strictly 
defensive in nature.
    And so China is showing aggression in there, at the same 
time telling us that they are going to work with us. Yet, they 
take over the South China and claim it all as theirs under the 
guise of peaceful navigational purposes.
    So it was great to see the FONOPs that we did--the freedom 
of navigation that the Navy did--and I hope we continue that 
with all nations in the South China Sea because China speaks 
that they are going to help us but yet their rhetoric isn't 
there. A detailed U.N. report issued in February of this year 
published the names and addresses of multiple U.N.-designated 
proliferators that have openly operated on Chinese soils for 
years and since then the Center for Advanced Defense has 
exposed China-based business networks as being behind the 
smuggling of record cargoes of North Korean weapons to the 
Middle East.
    So China is funding and allowing North Korea to gain access 
to these weapons or they are producing them, selling them to 
the Middle East, going into the hands of terrorists fighting 
our troops.
    And so if China is really going to help us, my question to 
you is why hasn't China been held accountable for the repeated 
violations and undermining of U.N. sanctions and what tools 
does the U.N. have in your capacity to hold China accountable 
and ensure the sanctions are implemented?
    And two last things. I chair the Asia Pacific Subcommittee 
in Foreign Affairs, and I know we are separate branches of 
government. But want to know where we can help you. And one of 
the things we did is put in the state sponsors of terror bill 
and I would sure love to see North Korea put back on the state 
sponsor of terror so that we can enforce the secondary and 
tertiary sanctions on banks and businesses doing business with 
them. So if you could answer that question about China, thank 
you.
    Ambassador Haley. Yes. So first of all, China is--when it 
came to North Korea, I do think there was a good faith effort 
initially. We continued to put more pressure.
    They continued to move a little bit more. As the missile 
testing continued to happen they actually publically in China 
were saying something about North Korea and then all of a 
sudden North Korea pounced back and at that point we saw a 
calming down of China and pulling back again of China.
    I can tell you that they did--when we proposed sanctions on 
North Korea and all the entities in those missile tests they 
voted with us and we were able to pass it because they voted 
with us. Are they doing enough on trade with North Korea? No. 
Laborers? No. Any of those other things? No.
    So the pressure we have put on has been strong and I have 
said publically if we had to go to secondary sanctions, we 
will. And so we are not past holding anyone accountable when it 
comes to supporting or helping North Korea in what they are 
doing with the nuclear situation and we will continue to push 
hard on that front and I think that the President has also----
    Mr. Yoho. Thank you for your service and thanks for being 
here. And any way we can help you let us know. Thank you.
    Ambassador Haley. Thank you. Will do.
    Chairman Royce. We go to Lois Frankel of Florida.
    Ms. Frankel. Hello.
    Ambassador Haley. Good morning.
    Ms. Frankel. I just want to thank you for your service. I 
have very high hopes and expectations for you and I am just 
urging you to remember that you represent all Americans, not 
just a President of the United States.
    Allow me to start with a little bit of a rant and then I do 
have a question. I do not understand why our President wants to 
keep putting more money in defense but yet reduce the funding 
for those elements of our security that would keep us from 
having to use our military. So that means, I think, that your 
efforts should be fully funded, obviously.
    I want to just say this and I want to say it politely 
because, as I said, I really--my purpose is to urge you to be a 
champion for the women of this world. I did not like your 
answer to my colleague's question about the defunding of the 
United Nations Population Fund because you said well, the 
administration has already made that decision.
    Well, I want to urge you to try to convince our present 
administration to overturn that. You know, I know you would 
agree that for the world to be peaceful that women need to be 
fully productive in their societies--not just reproductive but 
productive and that means they have access to health care.
    In our own country, our Constitution gives us the right to 
contraception and to legal abortion and yet we are making every 
effort to cut that off all over the world. We have the gag rule 
now. Now we have this defunding of the United Nations 
Population Fund and with a totally phony excuse about something 
China is doing, which there is no proof of.
    So I want to know how you are going to fight to make sure 
that women have access to health care around this world.
    Ambassador Haley. Well, thank you, and I first want to say 
that I do believe in this position I am serving every citizen 
in the country to try and have a strong voice for the United 
States. I will continue to do that and I see that as my role in 
my job.
    I have a passion for not only women but children in 
conflict and so at every position, whether it was Jordan, 
whether it was Turkey, whether it was Israel, I always just 
meet with women.
    Now, I meet with others but I do a separate sidebar with 
women to find out exactly what they care about. And so, for 
example, in Jordan and Turkey, the psychological support that 
they need and their children is a huge thing and I am trying to 
really push that we start to go to that psychosocial support in 
helping them.
    When it comes to family planning, we want to help with that 
as well.
    Ms. Frankel. How are you going to do it? Let me ask you, 
have you had a discussion with the administration about 
reversing their position on this health care funding?
    Ambassador Haley. Well, first of all, when it comes----
    Ms. Frankel. Would you have a discussion?
    Ambassador Haley. Of course. I have only been there 5 
months, so understand that UNFPA that was decided very early 
on. I have no problem looking into it. I have no problem 
checking to see what the reasonings were behind it and----
    Ms. Frankel. Well, I am just going to say something here. I 
think it is an urgent issue because I have to tell you that 
access to healthcare and reproduction is something that is 
occurring every single day. So you need to really do that.
    I have another question for you.
    Ambassador Haley. Just one more point, if you don't mind.
    Ms. Frankel. Yes, please. Yes.
    Ambassador Haley. So keep in mind the U.S. is not the only 
one that funds the UNFPA. We are actually the third largest 
donor to the UNFPA.
    So while I know that the U.S. has decided not to do that, 
those programs are not stopping because we do have other 
countries that are funding it. So I don't want you to think 
that that just goes away.
    Ms. Frankel. Okay. I just want to urge you, plead with you, 
please focus your attention on that.
    The next question, last question, is I know that the 
President has suggested that your budget be cut. Hopefully, the 
Congress is not going to go along with that. I want to get a 
commitment from you.
    If we fund the positions and we fund the efforts at the 
U.N.--the Congress--that we feel is necessary, are you going to 
take the effort to hire the positions and make sure that the 
issues we are trying to fund are executed?
    Ambassador Haley. I don't have anything to do with the 
State Department hires. That is different.
    Ms. Frankel. I am asking you about your hires.
    Ambassador Haley. Yes. My hires, yes, we will continue to 
do that and whatever budget you give me I will work with.
    Ms. Frankel. Okay. Thank you.
    Ambassador Haley. Thank you.
    Ms. Frankel. Good luck.
    Ambassador Haley. Thank you.
    Ms. Frankel. I am counting on you.
    Ambassador Haley. I know, and I will try and make you 
proud. Thank you.
    Chairman Royce. Adam Kinzinger from Illinois.
    Mr. Kinzinger. Thank you for being here.
    Ambassador Haley. Good morning.
    Mr. Kinzinger. Very, very appreciated. Thank you for your 
service. Thanks for spending the time with us and delving into 
a lot of important issues.
    Mr. Chairman, I will point out the clock needs to be reset, 
otherwise I will go on forever.
    Anyway, so just thank you for everything you've done and 
for being here. A lot of important issues we are discussing. I 
think there is no more important issue than Syria, which I know 
you have touched on.
    But when we look at world stability, when we look at the 
war on terror, when we look at American's safety, I think it's 
important that Americans understand that what goes on in Syria 
affects us here and that the brutal regime of Bashar al-Assad 
backed up by the Iranians, backed up by the Russians that are 
bombing hospitals with GPS or precision-guided munitions, 
secondary strikes against the same hospitals, are actually 
creating a whole new generation of terrorists.
    In fact, there are some in this body that buy into the 
argument that strongmen somehow work in the Middle East. I 
think it is important to remember that with the era of 
information and the era of being able to communicate, people 
simply don't like to be oppressed. Some people maybe think that 
they enjoy being oppressed but people don't like it. They, 
naturally, desire freedom and in that process of being--whether 
it's a chemical weapon attack, whether it's a conventional 
weapon attack--losing your father or your mother or your child 
makes me much more likely to join an opposition force which, up 
until recently, appears to have been ISIS in many cases.
    I want to thank you and the administration for putting what 
I think was an amazing red line down in the statement about a 
pending potential chemical weapons attack. As you said earlier, 
I think that saved countless lives. There are lot of children 
that now, hopefully, can realize their dream of being a police 
officer or a teacher because of that really strong line.
    So it's great having you there. It is great having an 
administration that understands this. Let me just ask a little 
about Syria and the discussion of that next generational war on 
terror.
    I think it's the 7- and 8-year-olds today that are in the 
refugees camps that are either not getting education or are 
getting education that are going to be either the folks that 
in, frankly, 5 years, because that is how young they recruit 
them, that we find ourselves having to fight on the battlefield 
or else they are going to be the generation that actually 
rejects this ideology from within.
    Can you talk about the difficulties in the refugee camps 
and the difficulties in Syria generally and how that plays into 
the long-term fight on terror that we have on our hands?
    Ambassador Haley. Yes. And so first of all, with Syria I 
would remind you that the post-ISIS decisions that are made in 
Syria are going to be extremely important to make sure that it 
is not a new breeding ground for other threats to come in.
    And having talked with the Syrian refugees both in the 
camps and outside of the camps, they are completely ready and 
waiting to go there and build it back up from scratch. They 
want to go home. They have family members there. That is 
something that I think is going to continue to happen.
    When it comes to the education, so what we know is the 
refugees that have come out, those children are getting 
educated. They are getting assistance. They are being well 
taken care of.
    All of those things are fine. There are about 500--300,000 
students in Turkey that are not getting education but the 3 
million people are and they are trying to accommodate that and 
that is why I am trying to get the U.N. to focus on supporting 
host countries so we can get those kids educated as well.
    In Syria, I don't think they are getting educated in Syria. 
Now, I am sure every area is different but it is just such a 
mess because we are just still trying to get aid in there. We 
are still trying to get food in there and make sure that they 
are taken care of.
    But it is not just in Syria. In any area around the world, 
if you have children who have to do without, whether it is 
education, whether it is health care, any of those things, they 
are prime targets for terrorists to get them and we have to 
always remember that as we go forward because that is--yes, we 
can defeat ISIS today but those threats will go on forever and 
that is why I put so much emphasis on human rights as it 
relates to conflict because those things are what drive 
terrorists to come in and take advantage of the situation.
    Mr. Kinzinger. And I thank you for being part of that whole 
of government approach. I mean, I think sometimes we get mired 
down in this idea that when the Islamic State is defeated we 
can all come home and have fun rainbows and happy time. But the 
reality is you can't defeat an ideology with bombs and bullets. 
You can only defeat existing terrorists. And so it's important 
to think long term because, frankly, this is going to be a 
long-term war.
    And I think, you know, specifically, a great country I got 
the privilege of visiting was Liberia and there is a strong 
U.N. mission there. I think it is important to note that when 
we talk about the United Nations, though needing reforms, it 
can be a force multiplier, doing things that our troops don't 
have to do.
    But you see in that whole generation that was torn apart by 
civil war and people that mean and want to do well, but you see 
30-year-olds that don't know how to read and write with no 
hope. And when that happens in the Middle East that is a 
fertile ground for recruitment.
    So, again, I just want to say thank you so much for your 
service. Thanks for being here, and I will yield back.
    Ambassador Haley. Thank you very much.
    Chairman Royce. Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman, and thank you, Ambassador, 
for your testimony today.
    Ambassador Haley. Thank you.
    Mr. Castro. I think your time during your service during 
this President's tenure has been one of the more moderating 
voices on what I consider to be some of their more outlandish 
moves. But I think it has also put folks like yourself and 
Secretary Tillerson in a box sometimes.
    And so I want to ask you a question that I have been asked 
many times by the Foreign Ministers, Ambassadors, members of 
Parliaments that I have met with since President Trump took 
office, which is who reliably speaks for the President in the 
foreign policy space?
    Ambassador Haley. So we work very much as a team and the 
team works strongly. In our NSC meetings I have a great 
relationship and we talk through things with Tillerson, Mattis, 
McMaster, we have Kelly--I mean, everybody there. That group is 
the main group--General Dunford--those are the main people. 
Pompeo is another important one. We go through all aspects of 
everything when it comes to dealing with that. So it really is 
a team----
    Mr. Castro. So there is a process in place that----
    Ambassador Haley. And a very organized process in place. 
General McMaster has done a fantastic job and all of our voices 
are heard and all of us get to help push that decision.
    Mr. Castro. Do you feel as though the President takes your 
advice?
    Ambassador Haley. I think that the President--you know, 
then General McMaster has to do that. I think the President 
does--he has turned out to be a very good listener in terms of 
the fact that he wants to learn and he appreciates different 
viewpoints and then he makes his decision.
    Mr. Castro. Well, I guess probably the most glaring example 
or problematic example that I have seen was when Prime Minister 
Netanyahu for a joint press conference--and the idea of a one-
state solution rather than a two-state solution was broached, I 
believe while Secretary Tillerson was on a plane somewhere, was 
not present--and then the next day you had to come back and 
basically say, no, our approach is still a two-state solution. 
And then the President later said well, it is really whatever 
the parties want to do.
    Ambassador Haley. Right.
    Mr. Castro. So you can imagine around the world that people 
start wondering who is speaking for the President.
    Ambassador Haley. Well, and in fairness too, everybody was 
involved with that. The President has very much felt like we 
don't need to push what the solution is between Israel and the 
Palestinians--that we need to have them come to the table and 
make those decisions.
    So his point was if they come up with a one-state, if they 
come up with a two-state--whatever they come up with we are 
going to support and the way it got out--I agree with you, the 
communication was weird--but that was his intention. So we knew 
very much that he wasn't giving up on a two-state solution. He 
just was saying whatever they come up with we will support and 
if that's a one-state solution we will support that, too.
    Mr. Castro. Well, and then I guess a more recent example is 
the example of Qatar, where the President was essentially 
praising the blockade and at the same time, because we have a 
base there and other interests, other parts of our foreign 
policy apparatus seem to be coming to the defense of Qatar. 
Again, there seem to be at least two heads there. What happened 
on that issue?
    Ambassador Haley. It is a complicated issue and, like I 
said, I have given my opinion. I think there is an opportunity 
to hit both sides and try and get more of what we want.
    Qatar has been funding--we know that they have done a lot 
with Hamas as we are dealing with Gaza and some other areas. 
And so I think the President really does want to push out ISIS, 
push out terrorism, and his whole point of going and making 
that first visit was to say we have got to get rid of all of 
these threats that we have. So when this came up with Qatar his 
focus was very much on the funding they were doing for 
terrorists and I think that, yes, we have a airbase there. Yes, 
there are some ties. But he sees the priority as cutting--is 
getting rid of ISIS and getting rid of terrorism as right there 
at the top.
    Mr. Castro. And then finally, because I just have about 50 
seconds left, I am on the Western Hemisphere Subcommittee and 
Venezuela, of course, is a big issue. I know you probably 
fielded a question from Albio Sires, perhaps, on it. But what 
is your outlook for Venezuela and for the region?
    Ambassador Haley. It is worse than what we are seeing on 
TV. It is in a very bad place and what I had said before was, 
you know, we did an emergency session--the Security Council. 
They weren't happy with that. They felt like it needed to go to 
the Human Rights Council but we still had it.
    We went to the Human Rights Council. The reason they have 
not brought it up, which they need to, is because Venezuela 
sits on the Human Rights Council. And so we blasted them on 
that.
    We were banking on OAS doing something. That didn't happen. 
This needs to be on our radar. Maduro is leaning more and more 
toward using military force and weapons and I think that this 
is something that is only going to get worse before it gets 
better and we need to make sure that we are watching this 
carefully and do something about it.
    Mr. Castro. Thanks for your service.
    Ambassador Haley. Thank you.
    Chairman Royce. Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman, and thank you, 
Ambassador, for your service to our country and for being here 
today.
    Ambassador Haley. Thank you.
    Mr. Zeldin. U.N. Security Council Resolution 2334 was an 
anti-Israel anti-Jewish resolution seeking to ethnically 
cleanse Judea and Samaria and East Jerusalem. Is it an accurate 
summary of your observations since taking over as Ambassador 
that some of the nations that voted for this resolution were 
resentful, some were apologetic and it appears to have been 
U.S.-led and U.S.-pushed?
    Ambassador Haley. I talked to all of the Security Council 
members and told them how offended and what a kick in the gut 
it was for Americans. What I got was some felt very arm twisted 
by the U.S. Others thought it was the right thing to do and 
then, you know, the hard part about me talking with 2334 is 
they keep telling me, well, it is the U.S. that wanted it--it 
is the U.S. that wanted it.
    So it is hard for me at this point. I am just saying there 
is a new administration. This is not where we want to go and so 
now they don't talk to me about it because they know it is such 
a sore subject with us.
    Mr. Zeldin. And your testimony is confirmation that the 
U.S. was engaging in dangerous ugly backstabbing of our 
nation's ally in Israel, and we abstained.
    And when Ben Rhodes and others were on conference call--
this is in the White House records--quoting verbatim--when 
asked why we abstained Ben Rhodes, the taxpayer-funded White 
House fiction writer, says, <greek-l>quote,  deg.``We 
abstained, as Samantha explained, for a number of reasons.''
    First, the United Nations, we continue to believe, is a 
flawed venue for this issue in that it has frequently been used 
to single out Israel. Not only was that effort U.S.-led and 
U.S.-pushed, but then publically we were abstaining and we were 
abstaining for the reason that I just quoted from Ben Rhodes. 
And I really appreciate your testimony to help clear the record 
and history on that.
    Ambassador Haley. Well, and if I could just add, I respect 
Samantha Power and appreciate her service very much. But that 
was one of our lowest points in our country with what happened 
because the international community, when they saw that we went 
against an ally, it set off a terrible tone in terms of where 
we are going to go.
    And just to let you know how bad it was, when she 
abstained, the entire Security Council and the audience got up 
and applauded and Israel was sitting there watching that. Think 
about what we just did to a friend, what happened. You don't 
ever applaud in the Security Council. It never happens. It 
happened that day.
    Mr. Zeldin. And I think it is clear from anyone in Israel 
who would be listening to your testimony here today that you 
have the back of America's allies. You understand that we 
should be strengthening our relationship with our friends, 
treating our adversaries as our adversaries and I am very happy 
that you are there.
    I do want to ask about the Taylor Force Act, which has now 
grown bipartisan support in Congress, which would withhold aid 
to the Palestinian Authority until it stops inciting violence 
and financially rewarding terrorists--a policy otherwise known 
as ``pay to slay.''
    Have you taken any position--are you able to share with 
regards to what your opinion is on the Taylor Force Act?
    Ambassador Haley. So I have met with the family and yes, I 
am very vocal about the fact that the U.S. gives bilateral 
money to the Palestinian Authority and we need to have a strong 
conversation with them on how these martyr payments have to 
stop and I think that it is one of those things that, by us 
giving money, we are supporting it and we have to make that 
correlation with them and let them know that that's not 
something that we are going to accept or do going forward.
    Mr. Zeldin. And I think it is great that you did meet with 
the family. Taylor Force--this isn't an Israeli. It is an 
American who graduated from the United States Military Academy, 
and I appreciate your leadership.
    In my remaining time, I am going to yield to the gentleman 
from South Carolina, Mr. Wilson.
    Mr. Wilson. Ambassador, we are so proud, as your resident 
Member of Congress, to be here with you. Also, a fellow 
resident of Lexington County, as a South Carolinian, we are so 
proud of your efforts to reverse, as Congressman Zeldin has so 
correctly pointed out, the anti-Israel policies. It is just--
what a breath of fresh air.
    I also want to thank you too, as I met with you in New York 
last week, thank you so much. Your first speech was to condemn 
Russian aggression in Ukraine--10,000 people dead--and Russian 
aggression in the Republic of Georgia. We are very proud of 
your service. And I am at the National Defense Authorization 
Act debate right now so I need to run back.
    Thank you. God bless you.
    Ambassador Haley. Thank you, and thank you for being my 
congressman.
    Mr. Wilson. Thank you.
    Chairman Royce. Brendan Boyle of Pennsylvania.
    Mr. Boyle. Thank you, Mr. Chairman, and welcome, 
Ambassador.
    Ambassador Haley. Thank you.
    Mr. Boyle. I actually wanted to raise an issue that has not 
been brought up yet, I think, for the 2\1/2\ hours of this 
hearing.
    Yesterday, we saw all around the world one of the worst 
cyber attacks ever to strike. Hacks targeted government 
ministries, banks, utilities, and other important 
infrastructure and companies, especially in Ukraine.
    Ukraine, again, suffered the extent of that attack worse 
than any other country, including, by the way, the virus-downed 
systems of the site of the former Chernobyl, forcing scientists 
to monitor radiation levels manually.
    So I have introduced, along with my colleague on the other 
side of the aisle, Congressman Fitzpatrick, also from 
Pennsylvania, we have introduced H.R. 1997, the Ukraine 
Cybersecurity Cooperation Act in order for the United States to 
help our ally in an area in which they are clearly vulnerable 
and that vulnerability has been exploited.
    Do you think such an act would be helpful and do you 
believe that your role at the U.N. would be aided if the United 
States Congress would provide leadership in helping an ally 
like Ukraine when it comes to cybersecurity?
    Ambassador Haley. So cyber attacks are the new ammunition 
that we are going to continue to see around the world and it 
continues to be worse and worse as every country continues to 
see how they can make it better.
    I can tell you that the U.N. is now trying to become the 
cyber activity police and we don't want that because we don't 
want China and Russia deciding how the U.S. would handle cyber 
attacks or dictate how we handle those things going forward. So 
we are fighting that. But yes, I think it would be helpful if 
the U.S. goes and does these things that would keep the U.N. 
from doing it and would allow for us to continue to help. And 
Ukraine, I can't say enough about what a great ally they have 
been on the Security Council. They have just been with us on 
everything.
    Mr. Boyle. So this is actually a good segue to the broader 
issue of our support for Ukraine. Your comments that you gave 
just now and others inspire a lot more confidence than the 
comments of our President and the Secretary of State when it 
comes to standing up and supporting our ally, Ukraine, turning 
back Russian aggression and illegal occupation of Crimea--and 
what they are continuing to do to this day in Eastern Ukraine, 
which often gets ignored in the media.
    I wanted to ask you about that, though, because, obviously, 
with the President, the Secretary of State, our Ambassador to 
the U.N., we have had, frankly, three different messages--at 
least two different messages.
    Do we, the United States, still stand and support and stand 
by the agreement that was reached in Minsk--the Minsk 
agreement?
    Ambassador Haley. Yes, we do.
    Mr. Boyle. Okay. That, you realize, is contrary to what the 
Secretary of State has recently said, that there would be--we 
would allow a certain amount of back sliding or a renegotiation 
of it agreeable to both parties. How do you reconcile that?
    Ambassador Haley. We continue to push the Minsk agreement. 
We just renewed sanctions last week on Russia's role in Crimea. 
We are not lifting those. We are going to continue to stay 
strong on that. And so at the Security Council that is what I 
am pushing. That is what I am doing.
    Mr. Boyle. And you would agree that we shouldn't offer any 
sanction relief before Russia finally lives up to its 
obligation in Minsk?
    Ambassador Haley. Absolutely.
    Mr. Boyle. That is great.
    Have you had this conversation with the Secretary of State 
and even with the President himself?
    Ambassador Haley. So the President and I have had a 
conversation with Ukraine and Russia. He very much wants to see 
how we can reconcile, if there is any way to--you know, how 
much this is. When I brought the Security Council not only did 
they meet with Members of Congress but they met with General 
McMaster. They met with the President and others, and Ukraine 
and Russia both sit on the Security Council.
    And so they also had conversations with him. I will remind 
you that my position is a Cabinet position so when I say 
something or I do something, yes, those are my views and those 
are my thoughts and that is what I share with General McMaster 
and with the President. So they are very aware of my thoughts 
on this and have not disagreed with me on that.
    Mr. Boyle. Yes. I do want to point out--one my colleagues 
referenced this earlier--I can't tell you the number of times 
that, because of being on this committee now several years, we 
have relationships with diplomats from other countries 
including parliamentarians of other countries, the number of 
people who have asked me, so who really speaks for this 
administration because the Secretary of State will say one 
thing. The President contradicts it within the hour.
    You give comments at the U.N. that are, frankly, more 
reflective of a traditional U.S.--Truman through Obama--foreign 
policy. So that continues to be a challenge and ends up making 
the U.S. look, frankly, incoherent in its foreign policy and 
makes your job more difficult.
    Ambassador Haley. Well, we work very well together and we 
work closely together, and while we don't, you know, just say 
the exact word for word talking points, we are all moving in 
the same direction.
    Chairman Royce. The Ambassador has to depart at 1:00 p.m. 
so I am going to ask members to be succinct.
    We go now to the co-sponsor of the legislation with Mr. 
Boyle and that is Brian Fitzpatrick.
    Mr. Fitzpatrick. Madam Ambassador, how are you?
    Ambassador Haley. I am good. Thank you.
    Mr. Fitzpatrick. Thank you for being a good leader. More 
importantly, thank you for being a good person. I think it is 
evident to anybody who is in your presence that you have a good 
heart and that is the most important quality you can have so 
don't change, please, okay?
    Ambassador Haley. Thank you.
    Mr. Fitzpatrick. A couple things--I want to thank you for 
your support for Israel. We have covered that a lot. Focusing 
in on Ukraine, which my colleague, Mr. Boyle, had alluded to--
Brendan's legislation is outstanding. It is critically 
important. If you could do me a favor, review that and any 
support that you and the administration could give to that 
would be very, very helpful.
    From a philosophical standpoint, because right now we are 
in the budgetary process--we are being asked to make some 
really tough decisions between military spending, diplomatic 
spending--from a philosophical standpoint, some people believe 
that U.S. intervention is only appropriate when our national 
security interests are imminently at threat.
    Other people take the view that when there are atrocities 
occurring around the world that the U.S. cannot ethically and 
morally turn a blind eye to that.
    So your philosophy on when intervention is appropriate from 
all components--if you could comment on that.
    Ambassador Haley. Well, I think that the U.S. should always 
have a strong voice. You always have to pick a side, you know, 
when it comes on any issue. I just think it is--abstentions are 
nothing that I believe in. I think you have to pick a side one 
way or the other and you have to tell what we are for and you 
have to tell what the U.S. is against and that doesn't mean 
that you are cutting countries off. It means that on every 
issue we are going to have a different thought and we have to 
just communicate that and make that known.
    We are the moral compass around the world. We have been. It 
doesn't mean we are perfect, but that is what we try and do. 
And so U.S. values, for us to continue to own those and express 
those I think is an important part of who we are. I also think 
that we are a leader and we are a leader that many other 
countries look to to see what we are going to do and they make 
their decisions on that.
    And so we need to always look at what our role is going to 
be and we need to decide place by place as opposed to just a 
blanket policy because all of these conflicts that we are 
seeing now are completely different.
    And so I think taking a custom approach to all of the 
conflicts and how we think we can be the strongest and most 
supportive to bring a political solution is very important.
    Mr. Fitzpatrick. I yield back.
    Mr. Smith. Will the gentleman yield?
    Chairman Royce. We would like to get to the junior members, 
if we could.
    We are going to go to Dina Titus of Nevada.
    Ms. Titus. Thank you, Mr. Chairman, and thank you, 
Ambassador.
    Ambassador Haley. Thank you.
    Ms. Titus. You said early on several times that we could 
count on you to be a thorn in the side of Russia or a thorn in 
the side of somewhere. But that's kind of like saying you're 
going to be a burr under the saddle or a pea under the 
princess. That sounds like we are more of an irritant than we 
are a leader and that is what worries some of us on this 
committee about what is happening to the image of the country.
    Also, I would like to go back to something that Mr. Meeks 
mentioned earlier and that's that poll that showed our image 
declining internationally. It says since the inauguration of 
President Trump, according to citizens of 27 countries from 
around the world, we have just gone downhill.
    You think that the President is doing a pretty good job but 
the rest of the world doesn't seem to think so. Sixty-four 
percent had confidence in the U.S. President at the end of the 
Obama administration. That number has fallen to 22 percent. At 
the end of the Obama administration, 64 percent had a favorable 
view of the United States. Now it is just 49 percent.
    I represent Las Vegas and, you know, that's an 
international city. We welcome 8 million foreign visitors from 
all around the globe every year. But we have seen a real 
decrease in the interest in coming to the United States by 
foreign visitors. According to the U.S. Global Travel 
Association, there is going to be a $1.3 billion loss in 2017. 
That is 4,200 jobs in communities like Las Vegas and 
Charleston.
    So all the signs show that if we don't work to correct 
this, it is going to have a major impact on a big part of our 
economy. In fact, the recent surveys show that 45 percent of 
European business travelers said that they would plan future 
meetings somewhere else because it is too difficult to come and 
travel to the United States.
    You said when you were governor that we want to continue to 
sell to the rest of the country and the world how great of a 
place South Carolina is to visit and you also said, when you 
were trumpeting the state's economic tourism basis, that what 
it tells everybody across the world is if you haven't been 
here, get here quickly, and if you have get back. Well, that's 
kind of what we like to say in Las Vegas, too.
    But I wonder if you really believe that the Trump 
administration has been a good salesperson for international 
tourism, if you are concerned about this image decline and 
these statistics, and as our representative to the United 
Nations, what you are doing to try to just repair that image, 
put the welcome mat instead of saying no, we don't want you to 
come.
    Ambassador Haley. So, first, in reference to being a thorn 
in the side, being a thorn in the side means that I call out 
something when I think it is wrong and I think that that is 
part of what the U.S. does and I think that it is also praising 
when things are right. It is criticizing when things are wrong 
and acting accordingly, and so I stand by my comments on that.
    I will tell you, in reference to your poll, I have not seen 
it. But whereas that is 27 countries, I deal with 192 and the 
overwhelming feeling is that we are unpredictable. They don't 
know exactly what we are going to do. But it has kept them more 
on alert in terms of wanting to be there with us, not wanting 
to get on the wrong side of us.
    So I haven't felt that. My goal is to have a relationship 
with everyone and to make sure that I show that the U.S. wants 
to get political solutions to all things and work with 
countries to do that. And so I always try and do that as we go 
forward.
    In terms of the economy, and you brought up South Carolina, 
which I am very proud of, we have multiple international 
businesses continuing to come in. Our economy is through the 
roof and we have record years in tourism and we are not seeing 
a decline in any way on international tourism, trade, any of 
those things. And so I do think that the President has set a 
tone. Every President sets a tone, and we always have sides who 
agree with the tone or don't agree with the tone. But my job is 
to make sure that I am on the side of the U.S. and that----
    Ms. Titus. You don't think unpredictability is dangerous 
and it leads to instability and can be a problem in 
international diplomacy?
    Ambassador Haley. In my job, I have found it has made my 
negotiations better and it has made it easier because they 
don't assume. They don't take us for granted anymore. They 
don't--they no longer look at us as one that they can just push 
over and know exactly what we are going to do. So for me it has 
been helpful.
    Ms. Titus. Thank you, and I yield back.
    Ambassador Haley. Thank you.
    Chairman Royce. Tom Garrett of Virginia.
    Mr. Garrett. First of all, I want to thank the chair for 
looking out for the junior members. We represent roughly the 
same number of people as the senior members and I am grateful.
    I am going to ask a series of questions that are really 
simple and I am seeking a relatively short answer. Do you think 
that conspiracy theories about things like Russian meddling and 
the outcome of our election that are propagated by some members 
of this body as well as the media, the basis of which a CNN 
exec recently called BS but ran the stories anyway, might 
contribute to diminished opinions of the United States around 
the world?
    Ambassador Haley. No one at the United Nations is talking 
about this issue at all or anything----
    Mr. Garrett. But the questioning, ma'am, with all due 
respect, was about----
    Ambassador Haley. Yes, it does not help the situation.
    Mr. Garrett. Okay. And do you think that rhetoric that says 
that because we have disagreements over things like health care 
policy, the President and the Republicans want to kill children 
and old people, might contribute to diminished feelings about 
the United States across the world?
    Ambassador Haley. That is far from the truth.
    Mr. Garrett. But do you think that rhetoric might 
contribute to a diminished opinion of the nation?
    Ambassador Haley. Of course.
    Mr. Garrett. Okay. And are you familiar with the quote by 
Vandenberg that said politics stop at the water's edge?
    Ambassador Haley. Yes.
    Mr. Garrett. Has that been your experience since you've 
served in your current capacity?
    Ambassador Haley. You know, I think my job is to sit there 
and ignore what is happening in DC because I have found the 
rhetoric has just been over the top.
    Mr. Garrett. It is--isn't it? Isn't it? And so I am not 
going to ask the follow-up question because I respect where you 
are coming from and appreciate the job you do and the fact that 
you have done it in a manner such that you personally at least 
have received bipartisan praise for in this meeting.
    But I think we reap what we sow as it relates to how people 
view us and that the reckless hurling of invective not 
undergird by facts, obviously, would perpetuate those who don't 
like us not liking us.
    Now, moving on to something more pressing--the U.N. 
Security Council Resolution 2231 essentially endorsed the 
JCPOA, which I have repeatedly and for the press gone on record 
as calling the JCPOS.
    I will tell you that 2231 repealed what was U.N. Security 
Council Resolution 1929. You are probably familiar with this. I 
am not confident who the prior administration had negotiating 
the JCPOA but are you aware that U.N. Security Council 
Resolution 2231 stated, ``Iran shall not undertake any activity 
related to ballistic missiles capable of delivering nuclear 
weapons,'' and then it was replaced by a U.N. resolution 
commending the JCPOA that read, ``Iran is called upon not to 
undertake any activity related to ballistic missiles,'' and 
then they gave a little bit more latitude--``designed to carry 
a nuclear payload.''
    Are you aware of this?
    Ambassador Haley. It is one of the most dangerous things 
that happened when we passed the JCPOA because basically what 
you did was you just deferred what is going to happen and you 
gave them a bunch of money to do it and now you see that they 
don't follow the rules by 2231 with the testing, with the----
    Mr. Garrett. I would argue that they didn't violate the 
rules of 2231 because 2231 endorses the JCPOA and the JCPOA 
says is called upon not to instead of shall not. And who wrote 
that? And that is a rhetorical question.
    For our nation with the security of ourselves and our 
allies in mind and how incompetent, or nefarious, are they? You 
don't need to--that is rhetorical.
    Ambassador Haley. It is very concerning. Very concerning.
    Mr. Garrett. Again, with all due respect. So my question 
becomes is there a way, and I have no clue to the answer, to 
repeal 2231 and actually go back to the United Nations 
resolution which was more effective in deterring Iranian 
aggression than what the United States let a multinational 
coalition hammering out.
    Is there any way to go back from 1929 to 2231, which says 
shall not as opposed to it is called upon not to?
    Ambassador Haley. Russia would veto it.
    Mr. Garrett. Okay. And that leads beautifully--almost like 
we coordinated this--into my next question. So there has been 
Russian aggression in South Ossetia--I am going to probably 
butcher some of these names--Abkhazia, the Georgian regions.
    There has been Russian aggression in East Ukraine and 
Crimea. There has been a Russian and China veto of U.N. actions 
regarding the tragedy and crisis in Syria. And we spoke 
yesterday with the Secretary-General and he said, well, there 
is so many things we can't do because the Security Council 
members would veto them. How do we make this organization with 
such lofty ideals an effective player on the world stage?
    And, part two--it is tangentially related--how do we repair 
the message that was sent when Ms. Power abstained that we will 
not be loyal to our allies by virtue of how we conduct 
ourselves today at the U.N.?
    Thank you.
    Ambassador Haley. So my number one goal is to make the 
Security Council mean something. I think that the fact that we 
are not seeing a lot of resolutions against Israel shows that 
that part is working.
    I think that Russia does stop a lot of things and lately 
Russia stops anything the U.S. is for. That is a long line of 
reasoning. China can do the same thing.
    I do think we have made huge strides in terms of 
peacekeeping reforms and what we are going to do on management 
reforms and the fact that we just saved $\1/2\ billion on the 
peacekeeping budget was a huge win, and so we are going to 
continue to do that.
    But the one thing I will tell you is we are going to 
continue to talk about 2334 as something that the U.S. does not 
support, does not endorse, and if given the opportunity, that 
will never happen again.
    Mr. Garrett. Thank you.
    Chairman Royce. Norma Torres of California.
    Ms. Torres. Thank you, Mr. Chairman, and welcome, 
Ambassador Haley.
    Ambassador Haley. Thank you.
    Ms. Torres. I know the time has been long and I apologize 
that we have not given you a short break.
    Ambassador Haley. No worries. I am fine.
    Ms. Torres. Regarding Syria, I agree with you, we can never 
take Syria back to what it was. So through this horrific 
conflict last December the General Assembly created the 
international, impartial, and independent mechanism to collect 
and analyze evidence about the atrocities in Syria.
    I want to know what specific steps has the United States 
taken to advance this mechanism.
    Ambassador Haley. So, interestingly enough, the Security 
Council supported the Joint Investigative Mechanism 
unanimously. They decided what it would do, how it would 
happen, and what things take place since that has happened and 
since we have had the Syrian atrocities with chemical weapons 
and everything else Russia now says it is not a fair mechanism 
even though they were the ones that helped put it together.
    We continue to support the JIM. We will continue to push 
the JIM. But Russia continues to undermine it and say that it 
is not something that is effective.
    Ms. Torres. Speaking about Russia, on April 27th you stated 
that Russia continues to cover for the Syria regime. Russia 
continues to allow them to keep humanitarian aid from the 
people that need it. Russia continues to cover for a leader who 
uses chemical weapons against its own people. Russia continues 
to veto and Assad continues to do these things because they 
know Russia will continue to cover for them. Do you still stand 
by that statement?
    Ambassador Haley. You know, I think General Mattis has 
implied that things are starting to move and I hope that's the 
case. But that has definitely been the case in the past and I 
would love to see all of that change but----
    Ms. Torres. So do you still stand by that statement?
    Ambassador Haley. Yes.
    Ms. Torres. Okay. Great.
    Although Russia and China have not sent over a jet fighter 
plan, although submarines are nearing our coast, there are 
other things that they have done, both, that have impacted our 
economy greatly.
    One of them is happening now. The port of Los Angeles is 
the last victim of this global cyber attack. Now, I understand 
that we are still investigating. We don't know exactly where 
that is.
    So I find it hard to believe and I would like to get 
clarification from you on your statement when you said--
regarding Mr. Boyle's question, that you do not want China or 
Russia to dictate how we approach these attacks.
    And I get, you know, somewhat where you are trying to get 
at that. But I am also concerned that there isn't a 
conversation, you know, within 192 countries that you deal with 
about Russia's influence in our election, about their influence 
in the European elections and, most recently in Germany's 
election.
    How can that be? How can we not see cyber attacks or 
influence in our elections as a threat to our democracy, as a 
threat to our economic standing?
    Ambassador Haley. So it is a threat and I think what you 
are seeing, and I've talked with my counterparts is we are 
seeing them intervene in multiple elections. I have talked with 
the Ambassadors about it.
    Everyone sees it as a problem and I do think it is 
something that is going to come up. I do think it is something 
that is going to surface because it is affecting so many other 
countries in the process.
    What we don't want is for the U.N. to regulate cyber 
situations because they would put China and they would put 
Russia on it because they are two P5 members.
    And so we don't want to do that because as they have done 
in so many other cases, they take care of themselves and they 
hurt everyone else.
    Ms. Torres. I have 1 minute left and now I am going to move 
on to a easier question. I understand that the residence of the 
U.S. Ambassador to the United Nations has moved from the 
Waldorf Astoria to a different high-rise building close to the 
United Nations.
    In 2015, a Chinese company purchased the Waldorf Astoria 
for $1.95 billion and the U.S. presence there was under review 
since we have strong concerns about the security implications 
of Chinese ownership.
    Chinese-linked hackers have been accused of perpetrating 
the massive breach of personnel records that compromise the 
data of millions of our own Federal employees. So I am very 
happy that the residence in New York has moved so that we can 
ensure the security of our personnel and your security. But I 
would also like to get further clarity from you regarding the 
future of the residence since the Trump Tower is only a mile 
away. I want to ensure that you are not thinking about moving 
and spending taxpayers' dollars at the Trump Tower.
    Ambassador Haley. No, I am not. I did not pick this 
location. We did move because China bought it and for the 
reasons that you stated. I did not pick this location but I 
will stay wherever--I will stay in this location until it is 
time for me to leave. But no, I am not moving to the Trump 
Tower.
    Ms. Torres. Thank you, and I appreciate your visit.
    Yield back.
    Chairman Royce. Mark Meadows of North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ambassador Haley, thank you so much----
    Ambassador Haley. Thank you.
    Mr. Meadows [continuing]. For enduring almost 3 hours of 
questioning in such an eloquent way. I think--representing 
North Carolina, I get to share the same television market with 
you when you were governor and I must confess I am so 
unbelievably impressed with your grasp of foreign policy coming 
from a governor to your particular position now.
    Being someone who loves foreign policy, there are nuances 
that we could trip you up each and every time with a question 
and yet you have been able to masterfully answer those from 
either side of the aisle. So thank you.
    Let me drill down a little bit further because, as you 
know, whether it was in South Carolina or in North Carolina, 
there is a huge push back for spending American taxpayer 
dollars on something and then having our member states vote 
against the United States over and over and over again.
    And so it has been one of those areas where I had a 
wonderful meeting with the U.N. Secretary-General yesterday 
who, by the way, holds you in very high regard. I was very 
impressed with him--I mean, in his desire to reform the U.N. 
because many times member states have, I guess, a push back 
when it comes to reforming because that may mean that moneys 
don't flow necessarily as easily to their host country.
    Would you be willing to work with Members of Congress on 
the voting records of member states to help us identify when 
they vote with us and when they do not vote with us so that we 
can have a very accurate account and perhaps tie it a little 
bit closer to foreign aid?
    Ambassador Haley. So, yes, I absolutely would be willing to 
work with you but I would say we need to use leverage. So I 
gave the example earlier. You know, for example, we give a lot 
of money to the Palestinian Authority. We should tell them that 
we can't continue to give money if they continue to have martyr 
payments----
    Mr. Meadows. Right.
    Ambassador Haley [continuing]. And if they continue--so if 
we can tie it----
    Mr. Meadows. And that doesn't mean just changing it from 
the PLA to the PLO----
    Ambassador Haley. Right.
    Mr. Meadows [continuing]. Because they stopped it in one 
and they moved it to the other.
    Ambassador Haley. Right. So I don't think we should do it 
by percentages of how much they vote with us. I think we should 
do it be leverage on policy issues that we can change.
    Mr. Meadows. All right.
    And so we have worked up a new report with the 
Congressional Research Service in terms of dollars given and 
how they vote with us and I was amazed to see billions of 
dollars going to many of these different countries and yet when 
it comes to Israel they vote with us 4 percent of the time.
    Can you take a message to many of your Ambassador friends 
in New York and tell them that that dog will not hunt?
    Ambassador Haley. I would love that list. Yes.
    Mr. Meadows. And so the time has come. There is a new 
sheriff in town and we are going to look at it very, very 
closely. Will you take that message back to----
    Ambassador Haley. I will take that message. I have told 
them that we will no longer be a pushover and they can't take 
our U.S. funding for granted any longer, and I would love that 
list.
    Mr. Meadows. All right. And we will get that to you.
    And the last thing I would say is would you consider 
Israel's human rights record to be better than that of Iran?
    Ambassador Haley. Yes.
    Mr. Meadows. So why is it perplexing--I noticed that you 
had an op-ed where you showed that there was 70 resolutions 
against Israel and only seven against Iran.
    Can you fathom any logical reason why the U.N. would do 
that?
    Ambassador Haley. Because they always have.
    Mr. Meadows. All right. Can you take another message to 
them, that that dog won't hunt either?
    Ambassador Haley. That is right.
    Mr. Meadows. All right. And if you will----
    Ambassador Haley. Message already sent and will continue to 
be.
    Mr. Meadows. All right. Well, thank you, Ambassador Haley, 
and with the last remaining minute I am going to yield to the 
gentleman from New Jersey, Mr. Smith, so he can follow up on 
one question.
    Mr. Smith. I thank my----
    Chairman Royce. And, again, I am going to suggest to the 
members our goal was to reach all of the junior members. But 
the gentleman from New Jersey is recognized.
    Mr. Smith. Well, some things were said that need to be 
corrected and I would like to just get this on the record.
    I would like to thank the administration for faithfully and 
very effectively implementing longstanding U.S. law initiated 
under Ronald Reagan which requires the shut off of U.S. funds 
to any organization, not just the UNFPA, but any organization 
that supports or co-manages a coercive population control 
program.
    Since 1979, China has required women to get permission to 
have a child. You don't have a child unless you get permission. 
Forced abortion is commonplace.
    It is pervasive, as is forced sterilization, and as you 
pointed out, Madam Ambassador, every dollar that doesn't go to 
the UNFPA will go to some other NGO or entity that will do the 
same type of work--family planning, maternal and child health, 
and I think this is very important and I could go on but I am 
out of time.
    Ambassador Haley. Thank you.
    Chairman Royce. The committee made a commitment to 
Ambassador Haley to end at 1:00 p.m.
    Ambassador, I would ask that you respond to additional 
questions in writing. We go now to Mr. Bradley Schneider of 
Illinois.
    Mr. Schneider. Thank you, Mr. Chairman, and thank you, 
Ambassador, for being here. I want to personally thank you. 
Your staff has taken the time to meet with us on issues such as 
sexual violence and exploitation and I look forward to 
continuing to work together.
    I am going to apologize if I get a tap on my shoulder. We 
have a vote in another committee on refugees, and I will stop 
and let you out.
    Ambassador Haley. I understand. Thank you.
    Mr. Schneider. But we have talked about refugees. We have 
talked about human rights and, as Mr. Smith touched on, what is 
happening in China.
    I want to bring you back to UNRWA, if I can, and in your 
opening remarks you said that there is an issue of culture 
versus incitement as they were talking to you about it.
    And I would argue that culture is something that comes 
through education and the education that is happening in the 
territories is incitement and if we are going to have a 
prospect for peace, if we are going to have a prospect for two 
states living side by side, insecurity impedes the Jewish state 
of Israel and the Palestinian state, the culture is going to 
have to accept that and that is going to come from the 
education.
    In other questions you have addressed the issue of 
education and the importance to educate young people in the 
territories, which I could not agree with more.
    My question is as you look at UNRWA it has been in place 
for 70 years. It has issues of harboring terrorists, working 
with terrorists. You can go on and on.
    Is there the opportunity to take the beneficial services, 
as you said, that are good, that come from UNRWA and find 
perhaps other agencies, whether it is the High Commission for 
Refugees or the PA itself and get to a point where after 70 
years this special unique situation with UNRWA can be 
streamlined into the operations of the U.N. and the Palestinian 
Authority to move us toward peace?
    Ambassador Haley. First of all, I agree with everything 
that you said and yes, we have----
    Mr. Schneider. And excuse me. I will leave you to answer, 
but I have to go vote.
    Ambassador Haley. We have talked to the Secretary-General 
and yes, we have made that push and would support that push.
    Chairman Royce. Well, I want to thank Ambassador Haley for 
your testimony here today. It is 1:00 and you have a lot of 
work to do with the reform agenda at the U.N. Many have tried 
before you and they haven't found a lot of success. So we wish 
you well.
    Ambassador Haley. Thank you.
    Chairman Royce. We will be backing you and we can see from 
your attitude you intend to succeed in this. But while it is 
frustrating, it is needed work because several U.N. agencies do 
important work, and I mentioned the value of peacekeeping and 
the need to make it better.
    And our security should never be delegated to the United 
Nations. I know you won't do that. But our security can also be 
improved when the U.S. rallies the world including at the U.N.
    So if I were to think of an example that comes to mind 
immediately it would be the North Korean resolution passed 
through the Security Council as an example.
    And, of course, we need better enforcement. We thank you 
for your commitment to that enforcement.
    Ambassador Haley, we look forward to following up on 
several of the issues that were raised today. Myself and the 
ranking member will see you in New York, and we all look 
forward to seeing you again in the committee.
    We stand adjourned.
    [Whereupon, at 1:01 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
